<html>
<title> - [H.A.S.C. No. 115-89 ] -ASSESSING THE FISCAL YEAR 2019   BUDGET REQUEST AND ACQUISITION REFORM PROGRESS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 115-89]
                      __________________________
                      
                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                     ASSESSING THE FISCAL YEAR 2019

                     BUDGET REQUEST AND ACQUISITION

                            REFORM PROGRESS

                               __________

                              HEARING HELD

                             MARCH 20, 2018
                             

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            _________                                        
                                       
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
30-559                  WASHINGTON : 2019      
 
 
 
 
 

                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
BILL SHUSTER, Pennsylvania           MADELEINE Z. BORDALLO, Guam
K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROBERT J. WITTMAN, Virginia          JOHN GARAMENDI, California
DUNCAN HUNTER, California            JACKIE SPEIER, California
MIKE COFFMAN, Colorado               MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
PAUL COOK, California                RUBEN GALLEGO, Arizona
JIM BRIDENSTINE, Oklahoma            SETH MOULTON, Massachusetts
BRAD R. WENSTRUP, Ohio               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               CAROL SHEA-PORTER, New Hampshire
SAM GRAVES, Missouri                 JACKY ROSEN, Nevada
ELISE M. STEFANIK, New York          A. DONALD McEACHIN, Virginia
MARTHA McSALLY, Arizona              SALUD O. CARBAJAL, California
STEPHEN KNIGHT, California           ANTHONY G. BROWN, Maryland
STEVE RUSSELL, Oklahoma              STEPHANIE N. MURPHY, Florida
SCOTT DesJARLAIS, Tennessee          RO KHANNA, California
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             THOMAS R. SUOZZI, New York
MIKE GALLAGHER, Wisconsin            JIMMY PANETTA, California
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming
JODY B. HICE, Georgia

                      Jen Stewart, Staff Director
                         Tim Morrison, Counsel
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Esper, Hon. Mark T., Secretary of the Army.......................     3
Spencer, Hon. Richard V., Secretary of the Navy..................     5
Wilson, Hon. Heather, Secretary of the Air Force.................     6

                                APPENDIX

Prepared Statements:

    Esper, Hon. Mark T...........................................    62
    Smith, Hon. Adam.............................................    60
    Spencer, Hon. Richard V......................................    72
    Thornberry, Hon. William M. ``Mac''..........................    59
    Wilson, Hon. Heather.........................................    79

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Banks....................................................    97
    Mr. Coffman..................................................    93
    Ms. Hanabusa.................................................    94
    Mr. Langevin.................................................    91
    Ms. Rosen....................................................    95
    Mr. Shuster..................................................    92
    Ms. Stefanik.................................................    93
    
 ASSESSING THE FISCAL YEAR 2019 BUDGET REQUEST AND ACQUISITION REFORM 
                                PROGRESS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Tuesday, March 20, 2018.
    The committee met, pursuant to call, at 10:02 a.m., in Room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Today, the 
committee will hear testimony from the three service 
secretaries on the administration's fiscal year 2019 budget 
request as well as on their progress in implementing the 
acquisition reforms already passed into law.
    The two are closely tied because both branches of 
government have a responsibility to get more defense value for 
the taxpayers from the money that's spent, as well as a 
responsibility to get innovation into the hands of the 
warfighter faster. Acquisition reform has put more authority 
and more responsibility with the services. We have begun to 
reverse the decline in funding. Now DOD [Department of Defense] 
and the services have to deliver results.
    The budget agreement, which Congress must complete by 
passing the appropriations bill this week, begins to repair and 
rebuild the military. But our adversaries are not waiting 
around for us to catch up. We must reform as we rebuild. We 
must be prepared across the full spectrum of modern warfare, 
from nuclear deterrence to the kind of political and 
information campaigns we will discuss at greater length at our 
hearing tomorrow. And we must measure success by output and 
results rather than inputs and process.
    The budget agreement gives us an opportunity, but the 
legislative and executive must work together to make the most 
of it. Business as usual will not adequately defend the Nation 
in today's world. I know I speak for all my colleagues on this 
committee in saying that we stand ready to do our part to get 
us on the right track.
    I yield to the ranking member.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 59.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I appreciate that.
    And I appreciate all the secretaries being here and I agree 
completely with the chairman's opening remarks. I think he 
perfectly outlines the challenge. There is the tiny little 
hurdle of actually passing those appropriations bills which 
seems to always be like we are just around the corner from 
doing it. That has been going on now for 14 months and it is 
still going on even as we are 3 days away from when it has to 
be done.
    But let us assume for a moment we get that done and there 
is a reasonable amount of money available to the Pentagon for 
2018 and 2019. And this is an enormously important opportunity 
for two reasons, number one, because it is a--well, three 
actually. There is a lot of money there so we have to make sure 
that we spend it wisely, as the chairman said.
    Number two, we face an incredibly complex threat 
environment, so we are going to want to do like 5 million 
things at once and prioritizing is going to be enormously 
important. And, number three, that money is very quickly going 
to be gone because when you look at our fiscal situation as we 
push towards $22 trillion in debt, we have, I think, the guess 
is it is going to be about a $1 trillion deficit this year and, 
of course, the Budget Control Act does have two more years, 
2020 and 2021, to come back into place.
    You never know, but the odds are this is the largest the 
defense budget's going to be for probably about the next 
decade. So we have to make sure that we spend this money wisely 
and we also spend it in a way that does not lock us into sort 
of long-term obligations that can't be met given the fiscal 
restraints that are coming.
    But I think the most exciting and most promising aspect of 
this as I have met and worked with all three of you and also 
the Secretary of Defense, the Deputy Secretary and the 
Acquisitions Under Secretary. And I think we have a great team 
together that is really focused on efficiency and is really 
focused on getting the most out of the money we spend and 
trying to make the mother of all bureaucracies, which is the 
Pentagon, work. I just had a good conversation with Secretary 
Spencer about this. I think we are headed in the right 
direction.
    I will just close by saying as we head into the 2018 NDAA 
[National Defense Authorization Act], if there is anything that 
we can do or not do in the NDAA to help you with that 
acquisition reform process, please let us know, because I think 
that is what's going to be most important is to make sure that 
we spend the money as wisely as is humanly possible to meet all 
the challenges that we do face.
    With that, I yield back and look forward to the testimony.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 60.]
    The Chairman. The committee is pleased to welcome the 
Honorable Mark Esper, Secretary of the Army; the Honorable 
Richard Spencer, Secretary of the Navy; the Honorable Heather 
Wilson, Secretary of the Air Force as witnesses today.
    Without objection, your full written statements will all be 
made part of the record. And we will be interested in hearing 
any oral comments you would like to make at this time.
    Secretary Esper, we will start with you.

     STATEMENT OF HON. MARK T. ESPER, SECRETARY OF THE ARMY

    Secretary Esper. Chairman Thornberry, Ranking Member Smith, 
distinguished members of the committee, good morning and thank 
you for the opportunity to be with you today.
    Let me say upfront that the Army's readiness across its 
formations is improving, and if called upon today, I am 
confident we would prevail in any conflict. This is due in part 
to the increased funding Congress provided last year. For this, 
I would like to say thank you.
    The Army's mission to defend the Nation has not changed, 
but the strategic environment has. Following 17 years of 
sustained combat, we now face a future characterized by the 
reemergence of great power competition and the continued 
challenges posed by rogue states and non-state actors, making 
the world ever more complex and dangerous.
    To address these challenges, the Army is changing. We have 
a comprehensive plan to ensure our long-term dominance, but we 
must have predictable, adequate, sustained, and timely funding. 
Fiscal uncertainty has done a great deal to erode our readiness 
and hamper our ability to modernize.
    While the Army must be ready to deploy, fight, and win 
anytime, anywhere, against any adversary, the National Defense 
Strategy [NDS] has identified China and Russia as the principal 
competitors against which we must build sufficient capacity and 
capabilities. Both countries are taking a more aggressive role 
on the world stage and either possess or are building advanced 
capabilities that are specifically designed to reverse the 
tactical overmatch we have enjoyed for decades.
    In support of the NDS, the Army is increasing our lethality 
along three focused priorities: readiness, modernization, and 
reform. Readiness is the top priority because only a ready 
total Army--Regular Army, Guard, and Reserve--can deter 
conflict, defeat enemies, and enable the joint force to win 
decisively.
    We are refocusing training for our soldiers to be more 
lethal and more resilient on the high-intensity battlefield of 
the future. We are increasing home-station training, getting 
more repetitions for our formations at the company level and 
below. We are giving training time back to commanders by 
reducing certain self-imposed mandatory training requirements 
not tied to increased lethality and by eliminating excessive 
reporting.
    We have maximized the number of Combat Training Center 
rotations to 20 per year, 4 of which are dedicated to the 
Reserve Component. These rotations are focused on the high-end 
fight, replicating near-peer competitor capabilities including 
increased enemy lethality, degraded communications, persistent 
observation, and a contested environment.
    And while the quality, training, and the esprit of our 
soldiers are what make the U.S. Army the most ready and lethal 
ground combat force in history, our superiority is enabled by 
the best weapons and equipment we can provide.
    As such, my second priority is modernization for future 
readiness. To ensure our soldiers never enter a fair fight, the 
Army is now increasing its investment in modernizing the force. 
Our modernization strategy is focused on one goal, make 
soldiers and units far more lethal and effective than any other 
adversary.
    The establishment of the Army Futures Command this summer 
is the best example of our commitment to the future lethality 
of the force. Army Futures Command will address the key 
shortcomings of the current acquisition system, providing unity 
of command, effort, and purpose to the modernization process.
    The Army has also identified its top six modernization 
priorities for the coming years. Each of these priorities is 
detailed in my written statement and each is the purview of a 
newly established cross-functional team [CFT].
    The purpose of these CFTs is to determine the requirements 
of needed capabilities to ensure all stakeholders are at the 
table from day one and to focus Army resources on accelerated 
experimentation, prototyping, and fielding. In order to ensure 
battlefield success, our doctrine must be updated to reflect 
the threat environment we face and remain at pace with our 
other efforts to modernize our equipment.
    My third priority is reform, freeing up time, money, and 
manpower to enhance readiness, accelerate modernization, and 
ensure the efficient use of resources provided to us by the 
American people. Our reform efforts particularly within the 
acquisition system are long overdue. While Futures Command is 
probably the boldest reform we are pursuing, other reform 
initiatives owe much to the acquisition authorities delegated 
to the services in prior NDAAs.
    Within these authorities, we are reinvigorating the Army 
Requirements Oversight Council, moving major defense 
acquisition programs back to the service, and using other 
transaction authorities to accelerate fielding in limited 
situations.
    A ready and modernized Army is critical to defend the 
Nation, but we must not overlook what makes us remarkable. For 
this, I have outlined three enduring priorities: first, taking 
care of our soldiers, civilians, and their families; second, a 
service-wide commitment, recommitment to the Army's values, 
especially by leaders, to treat everyone with dignity and 
respect; and finally, strengthening our alliances and partners 
by building stronger ties to a number of initiatives. I look 
forward to discussing this with you as time permits.
    With that, let me thank you again for this committee's 
continued support of the Army and specifically the defense 
authorizations and funding increases requested in the fiscal 
year 2018 and 2019 budgets. I look forward to your questions 
and appreciate the opportunity to discuss these important 
matters with you today. Thank you.
    [The prepared statement of Secretary Esper can be found in 
the Appendix on page 62.]
    The Chairman. Secretary Spencer.

  STATEMENT OF HON. RICHARD V. SPENCER, SECRETARY OF THE NAVY

    Secretary Spencer. Chairman Thornberry, Ranking Member 
Smith, distinguished members, I want to thank you for the 
opportunity to appear before you today and give you the posture 
of the Department of the Navy. It is an honor to sit here 
before you with my fellow service secretaries.
    On behalf of our services, the Navy and Marine Corps team, 
thank you for the effort put forth by Congress in reaching a 
bipartisan agreement and then support by the authorizing 
committees. Let me tell you on behalf of the Navy-Marine Corps 
team, we understand that this put people in the farthest edges 
of their comfort zone and we are wildly supportive of that and 
we thank you for your efforts.
    We look forward to getting those resources as soon as 
possible in order to enhance readiness and lethality in our 
department. These resources will be expended, in focused 
alignment with the National Defense Strategy, building our 
combat credible force.
    I echo what Secretary Esper just said about the need for a 
steady state of resourcing. Today, 94,000 sailors and Marines 
are forward-deployed and stationed using the global maritime 
commons as a medium for maneuver, ensuring the maritime lanes 
of commerce remain free and open, assuring access to overseas 
regions, defending key interests in those areas, protecting 
United States citizens abroad, preventing adversaries from 
leveraging the world's oceans against us, 24 hours a day, 365 
days a year.
    Our budget requests enhance readiness and continue 
increasing the capability and capacity of the Navy-Marine Corps 
team. As directed in the 2018 National Defense Strategy, our 
budget submission supports building a more lethal, resilient, 
and agile force able to deter and defeat aggression by peer 
competitors and other adversaries in all domains across the 
conflict spectrum.
    My priorities for the Department center on three 
categories: people, capabilities, and processes. The ability to 
accomplish our mission relies on people: 800,000 sailors, 
Marines, Active Duty, Reserve, our civilian teammates, and all 
their families. We are building a more lethal and resilient, 
agile, talented, and rapidly innovating workforce as we speak.
    The ability to accomplish our mission relies on having 
capabilities necessary to fight tonight, challenge the 
competitors, deter our rivals, and win. We are investing in the 
modernization of key capabilities and new technologies to 
attain that goal.
    Lastly, the ability to accomplish our mission relies on 
having efficient processes in place that will speed the value 
and the ability to support our warfighters in a more effective 
and efficient manner. We are creating a continuous improvement 
mindset in both our culture, management systems in order to 
deliver performance with affordability and speed.
    I deliver to you today a plan for the Department of the 
Navy with a sense of urgency. We cannot and will not allow our 
competitive advantage to erode. With your guidance, these 
planned investments will provide combat credible maritime 
forces for the future. We will ensure we are good stewards of 
providing these resources, drive efficiency across the 
Department to maximize every dollar, and invest smartly to 
leverage the return on our investments.
    I look forward to your questions.
    [The prepared statement of Secretary Spencer can be found 
in the Appendix on page 72.]
    The Chairman. Secretary Wilson.

  STATEMENT OF HON. HEATHER WILSON, SECRETARY OF THE AIR FORCE

    Secretary Wilson. Mr. Chairman, Ranking Member Smith, my 
statement is in the record and I would just like to highlight a 
couple of points that is really part of our budget. The first 
is that the Air Force budget for fiscal year 2019 aligns with 
the National Defense Strategy. It recognizes that we face a 
more competitive and dangerous international security 
environment than we have seen in decades. It also recognizes 
that great power competition has reemerged as the central 
challenge to U.S. security.
    In our budget there really are two bold moves and one 
continuing theme. The first bold move is the acceleration of 
defendable space. We need to be able to deter, defend, and 
prevail against anyone who seeks to deny our ability to freely 
operate in space.
    The President's budget reflects an 18 percent increase over 
the fiscal year defense plan for 2019, the 5-year defense plan, 
and that is on top of a 6 percent increase that we presented in 
the fiscal year 2018 defense plan. So accelerate defendable 
space.
    The second bold move in this budget is the shift to multi-
domain operations. And that is most visible in changing the way 
the Air Force plans to do command and control.
    There is one continuing effort in our budget, and that is 
to keep improving readiness to win any fight any time. That is 
what you expect of your Air Force and I look forward to your 
questions.
    [The prepared statement of Secretary Wilson can be found in 
the Appendix on page 79.]
    The Chairman. Thank you, all. I want to ask each of you to 
respond to, well it will be two questions, but I would invite 
you to be brief because obviously there is a lot of members who 
want to have a conversation with you.
    As the ranking member pointed out, we are talking about 
2019, but we have not yet completed all of the work for 2018. 
We have a defense authorization bill signed into law. We have a 
budget cap agreement signed into law. This week we need to pass 
an appropriation bill to match that.
    I would invite each of you to just briefly describe why 
this appropriation is significant for your service compared to 
a CR [continuing resolution], compared to a sequestration 
level, compared to the President's original budget, whatever 
level you would want to say. But I think it is important for 
members to hear from you directly now, why is this vote this 
week important.
    Secretary Esper.
    Secretary Esper. Thank you, Mr. Chairman. Let me just say 
briefly with regard to modernization, what we call future 
readiness, as you know, there are restrictions under a CR that 
limit us from doing two things, new starts and increasing the 
quantities of munitions among other things. So those are two 
immediate impacts we face right now with regard to materiel 
and, again, preparing for conflict. More broadly, because of 
the fact that we are operating under the CR and we have been 
now for nearly 6 months, it limits our ability to fund training 
exercises, to fill seats at our training base, and has an 
overall impact on the training and readiness of the force.
    The Chairman. Secretary Spencer.
    Secretary Spencer. Mr. Chairman, I can only echo what 
Secretary Esper just said and add something on as far as the 
Navy is concerned. You have heard me speak before what CRs cost 
the United States Navy since they began: about $4 billion 
burned in a trash can.
    But more importantly, we desperately need this new 
appropriations bill to be set forward. The capital assets and 
our cycling of maintenance for aviation, surface warfare, 
undersurface warfare, it is critical, absolutely critical that 
we get a continuous form of funding in order to manage the 
industrial base to put us back on a footing to be out there on 
the seas protecting that that we should do.
    The Chairman. Secretary Wilson.
    Secretary Wilson. Mr. Chairman, first, with respect to 
sequester, the sequester in the Budget Control Act is still the 
law of the land. And I would say that sequester did more damage 
to the United States Air Force and our ability to defend the 
Nation than anything our adversaries have done in the last 10 
years. We did it to ourselves.
    We cut 30,000 people out of the Air Force, reduced by 10 
fighter squadrons, and weapon system sustainment and the 
problems that we are having with pilot retention can really be 
tied directly back to sequester several years ago.
    With respect to the continuing resolution, we are limited 
in we cannot have any new starts of programs. So a lot of the 
programs that are going to take us into the future are just 
still pending, and we will have to execute those in the last 6 
months of the year.
    Particularly with respect to readiness, one of our major 
readiness issues is munition stockpiles. We want to be able to 
expand the capacity of our munitions production and we cannot 
do that until we get this budget through this week. Thank you.
    The Chairman. One other brief question. This committee has 
helped enact significant acquisition reform for the last 3 
years. A lot of that puts more responsibility on you-all's 
shoulders. My question is, based on what you know now, is there 
any area where we really messed up, where we made a mistake, 
where we did something that goes the wrong direction and need 
to be corrected? Obviously, there is going to be tweaks and 
small challenges, but based on what you have seen and what 
decisions you have had to make, et cetera, have we gotten 
anything significant wrong in the last 3 years?
    Secretary Esper.
    Secretary Esper. Mr. Chairman, no, not that I have 
encountered yet. In fact everything that I have had to deal 
with in the 3-plus months that I have been on the job has been 
positive.
    The Chairman. Secretary.
    Secretary Spencer. Mr. Chairman, again, I would say the 
same. There are some fascinating and interesting tools that we 
are using and we are going to use and look forward to use, so 
thank you for those. I would ask for a stabilization period so 
we can digest what we have and have the ability to come back to 
you if we need more, but right now the knife drawer looks full.
    The Chairman. Secretary Wilson.
    Secretary Wilson. Mr. Chairman, there are several things we 
are taking advantage of. The other transaction authorities, 
prototyping, and experimentation are tremendously valuable as 
is the decision by the Congress to push down to lower levels of 
authority milestone decision authority.
    There are a few other things that I would say are strings 
attached that I think might be worth looking at. There is a 
provision in there called Provision 807 on costing and fielding 
estimates that may require it go all the way up to the 
Secretary of Defense for every major acquisition program that 
probably should be put with the milestone decision authority.
    There is an independent technical readiness assessment that 
also may have to go back up the chain. All of these, if you 
push authority down, but you still require some of the sub-
decisions to go all the way back up the chain may not result in 
the speed that you really want. And then there is another 
Provision 808, which has to do with an acquisition scorecard 
which is a similar kind of issue.
    So I would say, in general these are tremendously helpful. 
We are accelerating our use of them. But there are a few things 
that we need to make sure the details also get pushed back to 
the milestone decision authority.
    The Chairman. Well, I just say we want to work with you in 
identifying those items. But as I mentioned at the beginning, a 
major premise of this reform is to give more authority and also 
more responsibility to the services. That is on you-all's 
shoulders.
    And as you all well know, the world is moving so fast and 
in many ways is so complex and dangerous that we cannot afford 
to not take full advantage of those tools, but also move out 
much quicker than we have been.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I was joking with staff up here that I think what we all 
ought to do is the only question we should ask about this 
entire hearing is we should ask Secretary Wilson to tell us 
what she thinks about the Space Corps and we should just have a 
constant conversation about that because I think that would be 
interesting. I will leave that to Mr. Rogers and Mr. Cooper 
actually.
    [Laughter.]
    Mr. Smith. But the question I do want to ask is where can 
you save money, because I have often said that ever since I 
have been on this committee 21 years it has a very easy-to-
track theme and that is people come over from the Pentagon and 
tell us all kinds of horror stories about what they do not 
have, about how short they are, about their unfunded 
requirements, about all the money that they need that they do 
not have, and how that lack of money is going to lead to one 
cataclysm after another.
    And I do not discount the threat environment that the 
chairman just described. But if we are going to get to good on 
that stuff, it cannot all be up, up, up, up, up, up, up. There 
has got to be some place in a $700 billion budget where you are 
going, ``Gosh, I wish I did not have to spend that money 
because I would like to spend it over here.''
    So I realize that the odds of you guys actually answering 
this question are remote, but I am going to throw it out there 
anyway. If you would say whether it is a program or whatever, 
where can you save money in each of your services? Where are we 
spending money that we shouldn't be spending money?
    Secretary Esper. So, Mr. Smith, I will go first. I think 
there are three things that come to mind immediately; first and 
foremost is acquisition and acquisition reform. So we believe 
that as we stand up Futures Command and the structure, the 
processes, the culture that we hope to change alongside that 
will result in fewer dollars wasted going forward and actually 
maybe save dollars as well.
    Number two, we are looking at a number of initiatives to 
tackle that problem as well, the problem of savings. One is 
contracting services. So we are looking to maybe save $1 
billion-plus a year for a period of years just by consolidating 
and rationalizing our contracting services.
    Mr. Smith. Are you sure? I mean, as you well know, that is 
a battle that is very, very difficult.
    Secretary Esper. Yes, sir, these are all difficult.
    Mr. Smith. Do you have any sort of quick metric for when it 
makes sense to contract out and when it does not?
    Secretary Esper. Well, I am speaking more directly now to 
services that you may find on a garrison or post where maybe 
you have dozens of contracts all for a small amount of money--
--
    Mr. Smith. Okay.
    Secretary Esper [continuing]. Where you might be able to 
consolidate those, you can reduce the throughput going through 
your contracting command to handle those and you can find some 
efficiencies there.
    Mr. Smith. Okay.
    Secretary Esper. You are speaking to a different issue, 
which I also agree we can find, and that is contractors. So I 
think the degree which, and this gets to the third point, the 
degree which we can, and I am looking at this now, rightsize 
our headquarters, rationalize them in terms of their functions 
and much like the Congress has done with pushing authorities 
from DOD down to services, how much authority responsibilities 
can we push down to lower level commands and maybe, again, save 
some manpower and resources that we could push back into other 
priorities or back into the field to make sure we have--our 
forces are fully fleshed out.
    Mr. Smith. Are there any programs, you know, any tanks, 
weapon systems, anything like that that you think we are 
forcing on you that probably is not necessary?
    Secretary Esper. We are looking at the entire range of 800-
plus programs we have. I know that as part of our reform 
efforts we are probably going to look at the lower end of that 
and assess each for return on investment and probably postpone 
or cancel some programs.
    Mr. Smith. Okay.
    Mr. Spencer.
    Secretary Spencer. Congressman Smith, I would say I would 
start by saying process, which is one of my areas that we are 
highlighting. I can address some of the things we are doing 
inside the Department of the Navy right now where we found 
close to $600 million just in de-obligation.
    So changing the thought process and changing the attitude 
on how we actually contract. So when you are through with the 
contract, your work is not done. If, in fact, there is funds 
left over, put them back in the bin, don't send to the 
Treasury. Small moves like that are now starting to save us 
some big moneys going forward. So focus on process across the 
way.
    Acquisition is the other big lever because that is where 
all the dollars are. If you look at the Navy, we have Ford-
class, Virginia Payload, Columbia, H-53. Those are some very 
sizeable programs.
    Two things that we need to address there. In the long term, 
we need to keep consistency of people involved with these 
platforms. They are long-term, long-lead platforms. We need to 
keep the expertise in place rather than removing people and 
causing seams in information.
    More importantly, the acquisition process, once the 
contract is laid, it certainly is not on autopilot. It deserves 
the attention up and down senior management at all times to 
manage these programs. You will see it I think going forward 
with Ford. We have a new plan here. You heard we put out the 
two-ship buy. This was divined from conversations that started 
back in November with our supplier. And I would almost like to 
say it is a new world in that the way we are approaching this 
and it is a hands-on, very active management style.
    Mr. Smith. Thank you.
    Secretary Wilson. Sir, I would identify a couple of things. 
One is the cost of sustainment, which for us is where a lot of 
the cost is for aircraft and let me give you a couple of 
examples. Additive manufacturing as a substitute for very long 
supply chains and that will require some help from you all with 
respect to intellectual property. And other things like 
predictive maintenance so that we can actually drive up the 
ability to have aircraft available and overall reduce the--we 
are going to focus a lot on sustainment cost and what we can do 
to improve our sustainment cost performance.
    The second area I identify would be artificial intelligence 
[AI] tools for intelligence, surveillance, reconnaissance 
analysis. Right now we have a lot of intelligence analysis, a 
lot of people watching full-motion video. That is not a good 
use of money or time and in that case time is money.
    Mr. Smith. If I may just say, on that point just quickly. 
There is a lot of technology out there and software that is 
getting frighteningly better at being able to look through a 
massive amount of data and find what you are looking for so 
that people don't have to sit there and look at video after 
video. We have so much information. There is no way you could 
possibly see it all. What we need is we need the AI to get in 
there and find what we are looking for in that massive 
database. So that is technology I would really encourage our 
committee to pursue. Go ahead.
    Secretary Wilson. Yes, sir. In fact, we are working several 
projects along that realm. The third that I would highlight has 
to do with the way in which we are doing acquisition. And we 
just released a report on acquisition that includes a number of 
initiatives to systemically reduce the cost of what we are 
requiring, including things like better estimates on what 
something should cost so that we drive down the cost of things 
in negotiation with contractors.
    We have over 450 very large acquisition programs, and when 
we do those things systematically and we invest in our 
workforce who are doing the contracting, we can over time drive 
down cost and some of that is included here. I would also say 
finally that the speed of acquisition, in the case of 
acquisition and manufacturing, time is money and so increasing 
the speed also helps to drive down the cost.
    Mr. Smith. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Wilson is recognized for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman. And I appreciate your 
success with Speaker Paul Ryan for appropriations to fund the 
military. Thank you for your leadership.
    I want to thank each of you for being here today. Your 
service, as a grateful veteran myself who has sons and a nephew 
serving today in the Army, Navy, and Air Force, we are joint 
service, your leadership is reassuring to military families.
    Over the years, Secretary Esper, I have had the opportunity 
and have been inspired to visit our Bulgarian and American 
troops at Novo Selo. Last year, it was incredible to meet with 
our NATO [North Atlantic Treaty Organization] troops in Poland, 
Latvia, Lithuania, Romania, and the Republic of Georgia. I want 
to commend you that I think it is highly appropriate, the State 
Partnership Program, is the State of Georgia with the Republic 
of Georgia. It is a wonderful experience to see so many 
Georgians together. What is the long-term vision for America's 
presence in Europe? What is the right balance between 
rotational and permanent troop presence in Europe?
    Secretary Esper. Well, thank you, first of all, for that 
comment on the State Partnership Program, Mr. Wilson. I agree 
it is a very important program. When I was in Europe recently, 
I had just witnessed the Illinois Guard coming out of Poland. 
They have had a relationship together since 1993 and I had the 
privilege of traveling to Ukraine where I saw the New York 
National Guard training our Ukrainian partners there. And as a 
former guardsman myself, I really appreciate the work that our 
Guard units are doing around the country.
    With regard to your question, that is an issue that the 
Army is looking closely at on a constant basis. When I was in 
Europe, I had the chance to talk with the EUCOM [U.S. European 
Command] commander, General Scaparrotti, about this. Right now, 
there is great benefit to rotating an armored brigade combat 
team to Europe. It provides us the ability to send a highly 
trained, fresh out of National Training Center, ready force 
that is also trained to deploy onto the European continent. 
That is something critical as we find a large number of our 
forces here in United States, the need to train to deploy.
    At the same time, we are also, as part of this fiscal year 
2019 budget, building up pre-positioned stocks and additional 
set in Europe to fall in. And I think over time, depending on 
how we are able to build additional facilities, particularly 
the Poles, to maintain readiness, whether it is gunnery or 
maneuver, it starts changing the equation as to how much we 
would rotate and how much we would permanently station on the 
continent.
    Mr. Wilson. Well, I greatly appreciate that, because to me 
it is peace through strength and to block Russian aggression in 
Moldova, Georgia, and Ukraine. And for each of you, in line 
with Ranking Member Smith, how are you planning to address the 
emerging technologies such as artificial intelligence, high-
performance computing, directed energy, hypersonics, and 
autonomy? How are you resourcing these technologies within your 
budget request? And each of you, hey, we will begin with 
Secretary Spencer.
    Secretary Spencer. Congressman Wilson, thank you. If you 
look at the National Defense Strategy and you look at the key 
implementation levers when it comes to technology, the majority 
of them are the ones that you just mentioned. We are realigning 
dollars spent in our $18 billion research, development, testing 
budget to align with the National Defense Strategy in order to 
not only capture more dollars into those buckets but to enhance 
the studies and the research that we have been doing so we can 
not only apply it but get it out into the warfighter's hand as 
soon as possible.
    Secretary Wilson. Sir, with respect to hypersonics, the Air 
Force budget includes $258 million for fiscal year 2019 for 
hypersonics. For directed energy, it is $280 million. What I 
would also say is that the three of us as secretaries have been 
getting together frequently to have breakfast. The Navy has the 
better coffee. But one of the things that we are doing is 
identifying high-priority areas of research and what all three 
of us are doing in those research areas, our services are doing 
in those research areas, to see where there are gaps, where 
there are overlaps, and where we can build off of each other's 
research including testing Navy systems on Air Force systems 
and it, I think, will start to bear fruit.
    Secretary Esper. Well, it is true the Navy has a better 
coffee. But we are also aligning our S&T [science and 
technology] for fiscal year 2019 and 2018. We have realigned 80 
percent of our S&T funding along our six modernization 
priorities to make sure we get better bang for the buck, better 
ROI [return on investment] for those. Within that, those 
include things such as AI, hypersonics, as Secretary Wilson 
mentioned, where we are trying to collaborate on that in other 
areas such as directed energy where we think collaborating 
together, putting additional funding into this can really help 
us get to the next level with regard to these types of 
technologies.
    Mr. Wilson. I thank each of you. And as the technologies 
change I am just grateful that you are in your leadership 
positions. Thank you.
    The Chairman. Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And it is good to see all of you here. Thank you very much 
for your service, for all your efforts right now as we go into 
this difficult period waiting for budgets and appropriations. 
And I want to applaud you on many of the points you have 
already made, but I wanted to talk to you about one that I 
think is dear, at least to I know, Secretary Wilson's heart as 
well as a number of us here.
    Each of your memos discussed recruitment and retention, but 
none of you mentioned that today each of the military services 
experience challenges retaining women to a varying degree, with 
a particularly wide gender gap in operational specialties.
    More women than men, as we know, leave the military at 
various career points. So, concerns persist that this attrition 
will result in a disproportionate impact to mission readiness 
if left unresolved.
    What initiatives is each of your respective services 
implementing to address this gender gap, how are you evaluating 
that, and to what extent is there really a lot of good sharing 
that is going on between the services?
    Secretary Esper, you want to start?
    Secretary Esper. Yes, ma'am. Let me address it a few 
different ways. First of all, I think we see a higher 
percentage of women being selected to enter the Academy as from 
a commissioning source.
    Along those same lines, as you know in the past couple of 
years we have opened up the combat arms branches to women. They 
are doing very well. I have had the chance to visit with them, 
the units they are in in both the National Training Center and 
at Fort Bragg. And at this point under the ``leaders first'' 
policy we have dozens of women in the battalions, these 
battalion-size units, over 600 women in.
    So, a lot of expansion happening there; we are expanding 
the number of posts they can travel to as well to make sure we 
have greater opportunity throughout the ranks.
    I think there is a larger point here, too, and it is more 
of a strategic one that I have discussed with some members 
here, and it is one of my major lines of effort in terms of the 
future Army. And that is how do we reform our current personnel 
system to focus it more on talent, an individual's knowledge, 
skills, and attributes with their preferences so that you can 
allow, for example, if a woman wanted to time-out her career 
and start a family, then could come back in and restart the 
clock without any type of promotion penalties or those types of 
things.
    So, I think we need to relook and I know we are internally, 
I've stood up a task force to look at what a future personnel 
system would look like to accommodate things such as you 
described to accommodate greater gender integration and 
opportunity.
    Mrs. Davis. Thank you.
    Mr. Secretary.
    Secretary Spencer. Congresswoman, as it applies to the 
Navy, I would, again, it is almost getting repetitive but echo 
what Secretary Esper just said as far as what we have for 
options and the ability to entice women to come in and join the 
Navy. All service sectors are open in both the Navy and Marine 
Corps as you know. All specialties are open.
    But when it comes to retention, if you look at our efforts 
in Sailor 2025, what we are doing specifically in the Navy, the 
ability to have an off-ramp mid-career to go do whatever you 
would like to do, whether that is to go off and get a degree or 
go off start a family, go off and do whatever you would like to 
do, and come in without penalty. That has been an active 
program that we have had, quite successful. And we are quite 
pleased with the results that it has.
    Going forward, rest assured the Navy is really looking at 
this, it is game on, because all three of us fish from the same 
pool, and that pool is getting smaller and smaller both by 
qualification and by demographic size. We are going to be 
competing with the private sector, as the economy increases, we 
are going to see more competition there.
    We are going to use every single tool available to us and I 
do believe we probably will be in front of you in the future 
whether it is addressing DOPMA [Defense Officer Personnel 
Management Act] or something along that line so it will allow 
us more flexibility in order to incorporate those people.
    Mrs. Davis. Thank you.
    Secretary Wilson. Ma'am, we have a higher percentage of 
women in the service than any of the other services and every 
position in the Air Force is open to women. We are also looking 
at different ways to be more flexible about how women and men 
can come in and out of the service depending on their life 
circumstances.
    I would also echo my colleague's comment. I think this year 
we are expecting a higher percentage of women entrants into the 
service academy class than any in history. And I would also say 
that we are, I think, trying to change a little bit the way we 
talk and think about who the protectors are in this country, 
because I think sometimes the way in which we talk about the 
services may appeal more to boys than to girls. And that is 
important, the way we talk about these things.
    And if I asked everyone in this room to think, just close 
your eyes for a second and think about the most protective 
person you know in your life; someone who would do anything to 
keep you safe. And half the people in this room are thinking 
about their moms.
    We are the protectors. That is what the military does. We 
serve to protect the rest of you. And that is a very natural 
place for a woman to be.
    Mrs. Davis. Thank you.
    The Chairman. The time of the gentlelady has expired.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    I want to thank all the witnesses for being here and for 
your service to our country.
    Secretary Wilson, first of all, I wholeheartedly agree with 
that last statement you just made and I applaud your effort in 
that endeavor. One of the primary things I try to do on this 
committee is keep Ranking Member Smith happy. And since he has 
charged me with asking you about Space Corps, I guess I will.
    Secretary Wilson. So, that is because he did not want me to 
talk about the KC-46.
    Mr. Rogers. Yeah. President Trump last week endorsed the 
idea of a separate space force. Do you agree with the 
President's assertion that we should form a separate space 
force?
    Secretary Wilson. Last week, the President of the United 
States said that the new National Defense Strategy for space 
recognizes that space is a warfighting domain. I don't remember 
any President ever openly saying that.
    He has relaunched the National Space Council under the 
leadership of Vice President Pence and nowhere is his 
leadership more clear than in the President's budget. And this 
year's budget accelerates our ability to deter and defend and 
protect our ability to operate and to win in space.
    The President wants to consider different ways of 
organizing, and we look forward to supporting him in that 
effort.
    Mr. Rogers. Great. And I would also point out his words 
were we should have a space force; we will have a space force. 
I liked the way that sounded.
    Last week, we had General Jay Raymond testify before my 
subcommittee and he talked about space being a priority and an 
elevation of its priority status within the Air Force. Then he 
also talked about $351 million worth of requirements that are 
unfunded requirements. If in fact space has this enhanced 
priority status within the Air Force, why are those $351 
million worth of requirements unfunded?
    Secretary Wilson. Sir, first of all, I appreciate the 
increased top line that came from this committee and from the 
Congress as a whole. We are required by law to put forward an 
unfunded priorities list.
    And what we have done in our unfunded priorities list is to 
accelerate things that are already in our 5-year plan so that 
when you ask us if there is higher top line, if there is more 
money available, what would we do with it and the answer is we 
would accelerate what is already in our 5-year plan and that 
was in three areas. The first was space. The second was nuclear 
modernization. And the third was military construction.
    Mr. Rogers. Well, in your opening statement, you made 
reference to the fact that there was an 18 percent increase 
over the FYDP [Future Years Defense Program]. But yet, there is 
only 6 percent increase proposed for the 2019 budget. I would 
really like to see those numbers reversed at least for the 2019 
budget. I think more than 6 percent would be a better 
illustration of priority status.
    Secretary Esper, my understanding is that the Army's 
modernization budget went up 14 percent from 2018 to 2019 and 
that is great news. And you have used that money to fund a 
variety of very important programs. But you forgot one--the 
Stryker program. Can you tell me why that is the case?
    Secretary Esper. Mr. Rogers, we are actually putting money 
into the Stryker program based on an urgent operational needs 
request from the commander in Europe. What we are doing is 
improving their lethality and survivability.
    On the lethality front, we are looking at arming them with 
30 millimeter cannons and with anti-tank missiles. I will tell 
you that when I was in Germany a month and a half ago now, I 
had the chance to spend some time on the vehicle and talk to 
the crew and was very impressed by what I saw.
    They will be taking those vehicles through their trials 
over the coming months and we will assess the effectiveness. I 
think in principle I think it is very good where we are going 
with regard to both up-gunning them and making them more 
survivable, survivable in the sense of adding double-V hulls, 
for example.
    Mr. Rogers. What are your long-term plans for the Stryker 
or do you know right now?
    Secretary Esper. Well, right now, we plan to keep them in 
the inventory. I think our focus really is on the next-
generation combat vehicle. That is one of our cross-functional 
teams and that is viewed more as a replacement, the next 
generation for the Bradley Fighting Vehicle, if you will.
    Mr. Rogers. Okay. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Thank you all for coming. So, we have been hearing 
testimony in the committee and a couple of subcommittees 
specifically with regards to the investment in emerging 
technologies from other countries, China and Russia in 
particular, and how that could change the military balance of 
power.
    So, the current S&T budget for the Department as a 
percentage is I think lower than it was when I was first here 
in early 2000s, but right now it is about 2.3 percent of the 
total budget. So, the question I have is, if this is a concern 
and a high priority, the S&T budget does not seem to be 
reflecting that.
    So, for each of you, briefly, can you tell us what your 
plans are for investing in your own S&T budget over the next 5 
years as opposed to just today.
    Secretary Esper. Yes, sir. Let me first say from 2017 to 
2019, we were seeing nearly a 20 percent increase in terms of 
RDT&E [research, development, test, and evaluation] funding, so 
about $8.5 billion to $10.2 or so.
    Alongside that, what we plan on doing is looking at the 80 
percent of the S&T budget and making sure that is fully aligned 
with our priorities. What we found last fall going into this 
that they were not aligned to any particular priority.
    So, I think we expect to get a lot more bang for the buck, 
return on investment, if you will, from greater alignment and 
greater focus. Knowing, of course, that S&T, the RDT&E budget 
is the seed corn for future readiness, we plan to continue 
investing in that because we know that it is critical to 
achieve what we need to achieve in order to be able to meet the 
threats, the challenges that are outlined for us in the 
National Defense Strategy.
    Mr. Larsen. Mr. Spencer.
    Secretary Spencer. I am actually not tremendously concerned 
as far as the overall S&T numbers because when you look at 2017 
compared to 2019, we are up $1 billion in Navy research and 
development.
    From where I came from, the first thing I noticed is that 
we are going to have to really harness the discipline of 
portfolio management. The great thing about having a strategy 
is you do have alignment.
    In the NDS implementation, we have our six lanes of effort. 
We will focus our dollars on those six lanes of effort, not to 
the disregard of other projects that we might have going on, 
but it is going to be a more focused, tailored application of 
funds.
    Secretary Wilson. Sir, we had a slight increase from fiscal 
year 2018 to fiscal year 2019 in our S&T budget from $2.5 
billion to $2.6 billion. I would say that my concern is that 
most of that is on the test and evaluation side and not on the 
pathbreaking research side.
    The Air Force has launched a 12-month review of our science 
and technology strategy to look at both where we invest and 
then how we partner with universities and industry to get more 
out of our research dollar and particularly how to spin-on 
technology developments that may have been developed outside of 
national security to get them into our weapon systems.
    Mr. Larsen. Yes. And that is probably where you ought to be 
headed. I appreciate the answers here. They are not settling 
for me but I appreciate the answers.
    So, Secretary Spencer, I will just ask you specifically on 
this because of the time. It has to do with EW [electronic 
warfare] and EW EXCOM, executive committee. The Growlers are 
all stationed at NAS [Naval Air Station] Whidbey Island and, of 
course, they are just airplanes until you put a lot of good 
stuff on them and that is all that electronic warfare.
    But we have had problems in the past getting the Pentagon 
to focus on EW more broadly, each service. Air Force dropped 
out of that business for a while, come back in. Army did not 
really have an organic capability till that was stood up in 
about 2006, 2007, 2008 or so because of Iraq.
    Maybe not on behalf of all the services but maybe just 
focusing on your service, can you talk a little bit, help me 
understand what you are doing to support EW EXCOM not just in 
terms of ideas, but to get that acquisition process to move 
faster when we make that investment into electronic warfare so 
that we have things like Next Gen [Generation] Jammers which 
are finally coming online after a lot of time. How can we 
shorten that timeframe?
    Secretary Spencer. Congressman, it is the focus of what we 
are doing right now. As I said it before in another committee, 
one of the secret weapons that took us 3 months to convince to 
come join us was Mr. ``Hondo'' Geurts out of SOCOM [U.S. 
Special Operations Command], and his abilities and his proven 
track record in expediting the acquisition process within 
government confines, that is going up and down the ladder on 
all platforms.
    EW is a key component for not only our Navy-Marine Corps 
team but for our other fellow services on battle force 
management. So, it is a key area that we are working on. It 
develops across the board. We are in conversations at all 
times.
    Again, back to your question as it pertains specifically to 
the Navy, it is our focus. We will get the Next Gen Jammer out 
there ASAP [as soon as possible].
    The Chairman. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Ms. Wilson, Secretary Wilson, I have never heard the case 
for who should be serving in our uniforms better put than the 
way you have said that. I do not know if you have noticed but 
it got real quiet in here when you were finishing up your 
statement and I think it is because your words were 
reverberating through the minds of everybody in here. So, thank 
you for that statement.
    And I am blessed to have been reared and raised by a mom 
who fit that category, so thank you for that.
    Secretary Spencer, we had four shipwrecks in 2017. As a 
result the Vice Chief of the Naval Operations and the Secretary 
ordered a review of what was going on, and one of the 
recommendations was that we take that decision as to putting a 
boat in harm's way further up the food chain and not allocating 
resources to a combat commander that were not ready to go 
there. Can you talk to us about where that recommendation is 
and what has been the reaction among the various folks who were 
looking at that?
    Secretary Spencer. Yes, Congressman. Just to add a little 
meat on that, not only did we do a comprehensive review at the 
CNO's [Chief of Naval Operations] level but we also put the 
strategic review in place at my level to go after the root 
causes. And one of the things that is one of the items, the 
recommendations that came out of the Strategic Readiness Review 
was our C2, our command and control.
    And you will soon be hearing a result of the last, I 
believe it was 2\1/2\ months of deliberation we had in the 
Navy, to provide a clear point of view from the commander on 
his ship looking up as to what resources he can ask for, who is 
responsible for providing them, and his chain of command to 
make it crystal clear that responsibilities are in place.
    As far as the combatant commanders go in tasking the demand 
signal, that is in place. I can tell you that robust 
conversations go on at all times. I think it has been 
heightened to a higher level, but interestingly enough, it is 
not so much the generator of the demand signal that is the 
issue, it really comes back to resource funding when it comes 
to surface ships and the Navy and even sub-surface ships and 
aviation for that matter.
    With continual funding, we can get these capital assets 
through maintenance back out into the fleet on a regular 
drumbeat and that will be the biggest solution to providing 
readiness and troop wear going forward.
    Mr. Conaway. Thank you.
    Mr. Esper, Secretary Esper, the fight in Afghanistan, you 
are doing something called the security force assistance 
brigades [SFABs] which seems to be a more tailored approach to 
assistance using maybe more experienced personnel as an idea, 
as a way to try to make sure the brigade combat teams are ready 
to go. But then, it looks like we are asking for those to come 
in on top of those security force brigades.
    Can you talk to us about the operational tempo of that 
security force brigade and why that is more or less than what 
it would be now and the impact it has on your ability to keep 
folks ready to go?
    Secretary Esper. Yes, sir. As you noted, we are standing up 
six security force assistance brigades; five in Active 
Component, one in the Guard. One has been stood up and is now 
in Afghanistan. It began in Fort Benning. The second one is 
being stood up now at Fort Bragg.
    And as you rightly noted, the purpose is to provide 
specially trained ready and equipped forces that can relieve 
infantry brigade combat teams of the challenges of maintaining 
readiness while they are deployed. So, infantry brigade combat 
team is 3,000-plus people. An SFAB is 816 or so.
    And what that does is you can allow better-trained equipped 
forces to train allied or partners at a much lower cost without 
degrading the readiness of a brigade combat team. So, as we 
said, the first brigade combat--I am sorry--first SFAB is on 
the ground now in Afghanistan beginning operations and we are 
anxious to see how well they do.
    And as you noted, there is an IBCT [infantry brigade combat 
team] there currently. I think over time, the purpose is to 
replace and not have a dual capability on the ground.
    Mr. Conaway. So, what would be the operational tempo for 
that security force brigade? How often will they go in and 
fight, coming and going?
    Secretary Esper. I think it would on the same type of 
rotational basis. I don't know that we have determined whether 
it is a 6- or 9-month rotation. That is something I know the 
chief and the staff are considering. But, again, the aim would 
be to replace an IBCT and IBCTs are typically on a 9-month 
rotation.
    Mr. Conaway. So, will they go back to the same spot kind of 
like your special forces guys do to make sure they get familiar 
with the area?
    Secretary Esper. Yes, sir, depending on the need from the 
combatant commanders.
    Mr. Conaway. All right.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Secretary Spencer, in the last couple of weeks, our 
committee has heard from two combatant commanders, Admiral 
Harris, who testified that he has basically been able to get, 
for the second year in a row, only about half the attack 
submarines that he needs in terms of requirements that he has. 
General Scaparrotti testified last week about the fact that 
they are seeing Russian submarine activity they haven't seen 
since the 1980s.
    In your testimony, you talked about the fact that the 
shipbuilding plan is designed to sort of be able to take 
advantage of industrial capacity, to sort of move more 
aggressively, which is great. I guess the question I want to 
ask is the Block V process is underway right now for the next 
5-year purchase of Virginia-class attack submarines; we had a 
great model in 2014 where the Navy built into the contract an 
option to go higher than the 9 subs that was originally 
requested by the Navy at that point, and they were able to get, 
as Admiral Johnson proudly proclaimed, 10 subs for the price of 
9 by using that option as a way to incentivize the 2 shipyards 
to come in with a better price, which is all about acquisition 
reform obviously that we are talking about here today.
    I have to say, we are getting sort of mixed signals right 
now in terms of on the one hand your visual chart that came 
over with the shipbuilding plan showed capacity in 2022 and 
2023. Obviously, the NDAA last year, my friend Mr. Wittman and 
I, we sent a strong signal that we would like to see that block 
go higher than 10 subs. Yet what we are getting in terms of the 
narrative testimony from the Navy is that they are really just 
proceeding on a two-a-year build rate for Block V.
    So, I guess the question I want to ask is using again a 
successful model, I mean, what is your position in terms of 
using an optional structure to the Block V contract to at least 
give us the ability to go higher given, again, what we are 
hearing from the combatant commanders?
    Secretary Spencer. Thank you, Congressman. The whole 
purpose for the 30-year shipbuilding plan to be delivered 
alongside the budget was to open up an intellectual discussion 
about what is available out in the industry as far as capacity 
goes. And that was the whole reason we included the graphic.
    As you all well know, the three of us sitting here are 
portfolio managers when it comes to allocation of resources for 
specific platforms. What I love to say, I can take as much 
money as you will give me and I will provide as much as I can 
up to industrial capacity, yes. But then, that would disbalance 
the portfolio.
    That being said, when it comes to the Virginia class which, 
by the way, for any of those of you who are interested, it is 
probably one of our best-performing undersea contracts if not 
boat contracts that we have over its period of time as far as 
performance per dollar, yes, we have that option available to 
us.
    Yes, we have the option available to us and we have been 
talking to industry, could we take that up to three boats a 
cycle. Yes, it is there if in fact the resources are there. It 
is the managing of the resources. If in fact through 
reformation I can find another $2 billion within the Navy and I 
can reapply those funds internally to that program or any other 
of the programs, totally available.
    Mr. Courtney. So, that is good to hear. Again, I just want 
to emphasize that when the Block IV was done, the resources 
actually weren't sort of appropriated yet, but it created a 
structure where they were able to expand it as time went on, 
again, with the strong support of Congress.
    And I just want to leave that point with you, that I think 
that hopefully will be the way to incentivize the shipyards as 
well as to give us that option to go bigger, and I know you 
know this, this is a real critical part of the fleet in terms 
of what is happening out there in the world today.
    And just to follow up on that, again, you were so helpful 
during the conference committee in terms of getting the 
continuous production authority which, again, was another way 
to give the Navy some efficiencies in Columbia class. Again, 
the October report that came over really didn't talk about 
using those authorities in 2019. And that is about $380 million 
I think was the estimate of savings that we could get from 
that.
    So, again, you were right there with us in terms of getting 
that language through, and I hope again we are going to take 
advantage of those authorities.
    Secretary Spencer. You will see us take advantage of those, 
Congressman. I think just if I could put a punctuation on the 
comment, in light of the discussions that we have had with our 
suppliers starting last fall, having candid discussions on what 
we need as far as requirements and expedition, and also asking 
what they need to go forward, the discussions now have risen to 
the level of if I need 20 percent savings and I need a year and 
a half taken off, what do you need from me to get there.
    And it is reframing the conversation so we are having a 
true insight as to the availability of production capacity 
within the system. We will exercise all that we can do to make 
sure that that is the most efficient application of dollars.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Esper, Secretary Spencer, and Secretary Wilson, 
thanks so much for joining us and thanks for your service.
    Secretary Spencer, just yesterday the Navy announced a 
request for proposals for a two-ship buy for CVN 80 and 81. We 
know that that is a welcomed response by the Navy to the fiscal 
year 2018 National Defense Authorization Act which talks about 
accelerating the pace to get to 355 ships; 12 of those will be 
aircraft carriers, so we deeply appreciate that.
    I think, too, it does several things. It sends a strong 
signal to the rest of the world that we are committed to having 
those 12 aircraft carriers. It is a commitment to the brave men 
and women in the Navy. It is also a commitment to the folks 
that build those ships. I think those are all extraordinarily 
important aspects of what we, as a team, Congress, the 
administration, need to do to make sure we have what is 
necessary going into the future.
    We know, too, that it is been expressed as you said in the 
negotiations and conversations with the contractors that we can 
save at least $2.5 billion by buying these two ships at a time 
and, again, keep us on track to the 12 aircraft carriers that 
we need.
    I wanted to get your perspective on this aggressive and 
innovative strategy you talked about how you all are working to 
save money, but more specifically what do you need from 
Congress as you continue down the road? Because obviously you 
will get these proposals in. What do you need from Congress to 
not only save the $2.5 billion, but hopefully save more in 
looking at buying two of these ships and things that we can do 
to enable the Navy to implement even more aggressively this 
strategy?
    Secretary Spencer. Congressman, I appreciate tremendously 
your support and your subcommittee's support and the support in 
this room when it comes to the capital assets the Navy is 
looking at.
    When it comes to actual additional authorities they are 
going to be de minimis believe it or not. We have what we need 
to go forward. When it comes to funding of the two ships, we 
will come before you asking on the financial side for a path 
forward in that way.
    But we really do believe that what you have given us when 
it comes to specifically surface ships, we have the authorities 
we need to go forward. Again, I go back to the understanding 
that we have presently in place, which was if we can find 
dollars in our reformation process, we can reallocate those 
dollars, coming to you obviously for approval, to put towards 
different platforms. That will be a battle cry within the Navy.
    Mr. Wittman. Very good. Thank you. Thank you.
    Secretary Wilson, I do want to talk a little bit about KC-
46A, not to leave that off the table but to put in perspective, 
here is a platform that has been flying since 1981 and it has 
already been delivered in a tanker configuration to two of our 
allies just last week. We saw, too, Boeing reported the KC-46A 
program had two category one deficiency reports--one in the 
remote vision system and the other in the centerline drogue 
system.
    Are these deficiencies behind the Air Force's report last 
week that they are going to revise the timeline for first 
delivery? And if not, tell me the impact of these deficiencies, 
and it is not just these system deficiencies but it is also 
getting the FAA [Federal Aviation Administration] 
certifications which I believe are still on schedule. But if 
you will give us an overview about where things are, because 
Boeing are still saying they are going to deliver on time, the 
Air Force changing the timelines, can you give us a perspective 
on where things are?
    Secretary Wilson. Yes, sir. Boeing is saying that they are 
going to deliver in the second quarter of 2018. The Air Force 
thinks it is more likely to be late 2018. And Boeing has been 
overly optimistic in all of their schedule reports.
    There are a couple of things that impact this. One is they 
have had flight test delays, so the flight test, the FAA flight 
testing has not gone as fast as Boeing anticipated it would. 
And the Air Force was skeptical about its schedule when it was 
put forward.
    As you mentioned, there are two critical deficiencies, one 
being the remote vision system and the second being a drogue 
disconnect that they are working on fixing. The Under Secretary 
of the Air Force went to Seattle last week for a deep dive with 
Boeing, and we have asked them to put their A team on this to 
get the problems fixed and get the aircraft to the Air Force.
    Mr. Wittman. Okay. Very good.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And welcome to the Secretaries Esper, Spencer, and Wilson.
    Secretary Spencer, my question is for you. 2017 was 
challenging for the Navy, particularly with regard to the 
maintenance of the fleet. Numerous articles and GAO [Government 
Accountability Office] reports discussed the maintenance 
backlog for surface and submarine vessels.
    I continue to be perplexed at the Navy's mixed messaging on 
the state [of] readiness in regards to depot-level ship repair. 
The 2017 Strategic Readiness Review highlighted that the 
constrained ship repair capacity is inadequate to meet the 
demand. Yet when we asked if the ship repair capability was 
insufficient to meet requirements in the Pacific, the response 
was that the Navy did not agree with this.
    With 60 percent of our naval fleet operating in the Pacific 
region, what is the Navy's plan for depot-level ship repair in 
this area and is it a priority?
    Secretary Spencer. Congresswoman, we have had discussions 
on this and I appreciate your question. Obviously, depot-level 
maintenance is key to the Navy. You have heard me earlier as I 
was answering questions that we need to get the proper 
resourcing facing off our ability to access availabilities in a 
timely manner to get what I call the battle rhythm of 
maintenance and ships out in the fleet back to normal.
    We believe that in the North American market, with going 
back to appropriately funding availabilities and having the 
discipline to access those availabilities, we do have the 
capacity to get the fleet back on its feet and out the door.
    Ms. Bordallo. Mr. Secretary, then would you say it is 
adequate or inadequate?
    Secretary Spencer. Between public and private, I believe it 
is adequate.
    Ms. Bordallo. Thank you. Another question I have for you, 
the fiscal year 2018 NDAA also required the Navy to report to 
this committee on depot-level ship repair in the Western 
Pacific. Earlier this year, I asked that you provide periodic 
updates on the progress. So, what is the status of this report, 
and when do you expect for the report to be completed and 
transmitted to this committee?
    Secretary Spencer. I would hope that this report, 
Congresswoman, be ready by the end of spring, giving you the 
update that you need about the assets available.
    Ms. Bordallo. Good. Good. All right. My second question, 
Secretary, in 2011 the DOD made the ``net negative'' commitment 
to reduce land holdings on Guam as part of the relocation of 
the U.S. Marines from Japan.
    Last year, the Navy submitted a report to this committee 
regarding the status of net negative, which included eight 
additional parcels pending transfer to Gov-Guam [Government of 
Guam] totaling some 114 additional acres. This commitment for 
the military to hold less land on Guam is key to maintaining 
support within our civilian community. So, will you commit to 
providing me and the committee with an update on the status of 
the Navy's efforts to return these eight parcels?
    Secretary Spencer. I will.
    Ms. Bordallo. All right. And additionally, I introduced the 
Guam Land Return Act yesterday that included seven additional 
properties requested by Gov-Guam agencies and Guam families for 
consideration as part of the net negative pledge. So, will you 
commit to reviewing these parcels for me?
    Secretary Spencer. We will commit to review it, 
Congresswoman.
    Ms. Bordallo. Thank you. And I still have a little time.
    This question is for the panel as it relates to your area. 
After years of concern regarding readiness shortfalls and the 
impacts of sequestration, I am concerned that the 2019 budget 
request may not appropriately balance long-term readiness 
recovery through modernization with near-term efforts through 
sustainment and maintenance.
    So, with regard to the fiscal year 2019 budget, how will 
the request support near-term readiness recovery and are there 
specific areas in the operations and maintenance accounts such 
as weapon systems and so forth. Could you help with this 
readiness recovery effort?
    Secretary Esper. Ma'am, we are putting substantial sums of 
money into both O&M [operations and maintenance] for near-term 
readiness and, of course, additional dollars for modernization 
account as well, double-digit spending if you will. And so, we 
are confident that this funding is sufficient for us to lay the 
groundwork to build the next generation of fighting vehicles, 
aircraft, et cetera.
    At the same time, the essential piece for us, we believe in 
the Army is to reform the current acquisition process. So, we 
are putting a lot of effort into that, most notably the Army 
Futures Command which started this summer which will help us 
maximize every one of those dollars.
    Ms. Bordallo. Thank you, Mr. Secretary.
    And for the Air Force, I have no questions. I yield back.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Thank you all for being here this morning. And my first 
question will be for Secretaries Spencer and Wilson and then a 
couple of follow-ups. And I think I know the answer to this but 
it's important to put it on the record.
    Under the previous administration the number one stated 
mission of the various branches, well, of the Department of 
Defense, was the nuclear enterprise and its role in providing a 
strategic nuclear deterrent.
    Can you confirm that under this administration and under 
your stewardship, for the parts of the triad that are under 
your purview, that that continues to be our number one mission?
    Secretary Spencer. I can confirm to you, Congressman, that 
for the United States Navy in our understanding of the total 
NPR [Nuclear Posture Review] and National Defense Strategy, it 
is. And I can show you by data what I mean by that. The number 
one acquisition program in the United States Navy is the 
Columbia platform, which is the undersea leg of the nuclear 
triad. And that is our primary focus for the primary platform.
    Secretary Wilson. Sir, one of our core missions is the 
nuclear deterrent and I believe that a safe and secure and 
reliable nuclear deterrent has helped to keep the peace since 
the Second World War. In the Air Force budget we are 
responsible for two of the three legs of the triad. Our budget 
includes the modernization of a long range standoff weapon 
which is the replacement for the air launched cruise missile, 
the modernization of the B-52s, the continued development of 
the B-21 bomber, as well as the ground based strategic 
deterrent, which is the replacement for the Minuteman III.
    The one part that is not often focused on in the nuclear 
deterrent, but is funded in our budget as well as the Navy's, 
is nuclear command, control, and communication and that part is 
also modernized in this 5-year period and it's an extremely 
important part of the nuclear deterrent.
    Mr. Lamborn. Would you go as far as to say that these 
things you just described are your number one mission or at 
least that nothing is higher than those missions?
    Secretary Wilson. Sir, I would say nothing is higher than 
those missions. The Air Force provides global reach, global 
power, global strike, global mobility. So we provide a lot of 
things to the joint force, but there is nothing higher than the 
nuclear deterrent.
    Mr. Lamborn. Thank you. I appreciate those answers. And 
Secretary Wilson, I am really glad to see that we are going to 
have more money in the upcoming budget for nuclear 
modernization and for catching up in space. Will there have to 
be trade-offs though with the rest of your budget to accomplish 
those things? Or will that be able to be done with new money?
    Secretary Wilson. So with respect to the nuclear deterrent, 
as I mentioned we are doing modernization of two legs of the 
triad and also nuclear command and control. With respect to 
space, we are not catching up. The United States of America is 
the best in the world at space.
    And our adversaries know it. In any future conflict, we 
expect that they will seek to deny us the use of space as part 
of the--in any crisis or conflict. So, what we are doing in 
this budget is accelerating our ability to defend our assets on 
orbit.
    The Air Force operates 76 satellites, of those 30 are GPS 
[Global Positioning System]. We are moving to jam-proof, or 
jam-resistant GPS. We also operate satellite communications, 
about 25 of the 76 satellites are satellite communications. We 
are moving towards jam-resistant satellite communications. So 
across the board and then we have things that we are doing to 
defend other assets on orbit. So we are moving to defendable 
space so that we can deter and defend our assists on orbit, 
which we did not have to do when we initially built this 
architecture. It's a challenge, but we are meeting that 
challenge.
    Mr. Lamborn. Okay. And I am really glad to hear that. To 
accomplish that and the acceleration you talked about, and I am 
totally in support and really happy to see that. But do you 
anticipate any trade-offs to get there or not?
    Secretary Wilson. Sir, there are always trade-offs in any 
budget. We deeply appreciate the increase in the top line for 
defense, which has allowed us to meet many of our missions and 
try to do so cost-effectively, because our obligation is to 
take every dollar that you have appropriated for us and try to 
do the best we can to defend the country.
    Mr. Lamborn. Okay. Thank you very much.
    Mr. Chairman, I yield back.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And good morning to our witnesses. It is good to have you 
here. Secretary Spencer and Secretary Wilson, I first wanted to 
address the ongoing physiological episodes occurring in the F/
A-18 community and increasingly in other aircraft throughout 
the Navy and the Air Force.
    There have been two recent incidents that underscore the 
urgency and persistent nature of this issue. In January, an EA-
18 Growler aircraft experienced a failure in the environmental 
control system causing temperatures in the cockpit to plunge to 
negative 30 degrees, resulting in a layer of ice covering the 
instrumentation and windows, rendering the pilots almost 
completely blind according to the report.
    Both pilots survived, but suffered serious frostbite 
injuries. Most recently, two Navy F/A-18 pilots died after 
ejecting from their aircraft near Naval Air Station Key West 
just last week.
    Now, while the cause of this latest incident has yet to be 
determined, I am gravely concerned not only about our efforts 
to correct this ongoing problem, but also about the impact it 
may be having on the recruitment, retention, and confidence 
level of the pilots we ask to fly this aircraft. It is vitally 
important that we get to the root of this ongoing problem as 
soon as possible.
    And in particular, Secretary Spencer, I encourage the Navy 
to maintain the constancy of effort and expertise to help get 
at the bottom of this and help solve it. It is just a 
statement. It is something we have been monitoring in the 
Tactical Air and Land Subcommittee.
    I hear from families quite often about it. And in a recent 
meeting with the Chief of Naval Operations there was a young 
pilot in the room who herself had had three physiological 
episodes while flying for the Navy. So something we have to 
stay on top of and just wanted to make that statement.
    Switching topics, Secretary Esper, I commend you and Army 
leadership for establishing a Futures and Modernization Command 
within the next year. Too often, too many years and too many 
taxpayer dollars have been misused in developing capabilities 
that the military services ultimately determine are no longer 
relevant in the face of rapid technological change and a 
changing threat environment, oftentimes just as you are about 
to make a very important investment and move forward.
    This problem impacts all the services, but two recent 
examples are top of mind: the Army's network modernization 
strategy and the Air Force's follow-on JSTARS [Joint 
Surveillance Target Attack Radar System] program. The services 
may well learn from programs that are cancelled or head in a 
new direction.
    But the amount of time, the amount of money, and in 
particular the amount of talent we waste in learning those hard 
lessons is of great concern, particularly, when the reasons 
behind these course corrections were foreseeable, had our 
Nation's greatest innovators had a seat at the table. So with 
that said, Secretary Esper, how do you aim to get at this 
problem through the proposed Futures and Modernization Command?
    How will the command work through anticipating what 
capabilities we will need in the future? The threats are not 
always as unknown as sometimes suggested. And equally 
important, what capabilities our adversaries will have in a way 
that is better than our process.
    And you said today, the focus is to save money, but to make 
sure we are more effective, more lethal, you have a more 
effective, more lethal Army. How do you see the Futures Command 
and modernization command achieving that goal?
    Secretary Esper. Congresswoman, the Army Futures Command 
will likely do two things. One, we'll have the talent inherent 
from both military and civilian to look deep into the future 
about what the strategic threats and the operational 
environment may look like. That in turn will help inform the 
material solutions that we may need in that future state. And 
like----
    Ms. Tsongas. How will that change compared to what you do 
now? What will be different about that?
    Secretary Esper. What we find now is that capability--the 
need to look into the future often gets lost because of the 
demands of the present. And by putting that responsibility in a 
separate command, and just focused on the future, the sense is 
that we will have greater focus on the future and not get lost 
by the present.
    There will be another organization responsible for 
maintaining focus on the near fight. The other part of what 
Futures Command will do, of course, is to consolidate the 
entire acquisition process, achieving unity of effort and unity 
of command, which is essential to holding people accountable 
and to making the system as efficient and as effective as 
possible.
    And in that way we can line up everything under a single 
commander, whether it's from the concept to the requirements 
process, to the material development plan, all the way through 
engineering, manufacturing, development, sustainment, testing, 
et cetera.
    We will bring all those people together upfront. And more 
specifically to the point you raised, and we are doing this now 
in the cross-functional teams, is we bring everybody to the 
table early, to include the private sector and academia where 
need be, to get those best ideas that are happening out there.
    Ms. Tsongas. I think it requires a deep dive, and to do 
that you have got to have people whose job and life has been 
focused on looking ahead.
    Secretary Esper. That is right.
    Ms. Tsongas. And not just solving a near-term problem as 
has been too often the case. Thank you.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Spencer, this is more of a request. I know that there 
is a proposal to draw down either the Mercy or the Comfort, one 
ship operates on the east coast, one in the west. If those 
current ships are not the right platform for the mission, I can 
certainly understand that. They are very old. But I just want 
to reiterate my support for that mission and tell you that when 
I was in Djibouti, the Chinese had a hospital ship over there. 
Certainly providing health care to countries I believe is a 
vital part of our soft power.
    And look forward to meeting with the Navy about how they 
intend to carry out that mission if the Mercy and the Comfort 
are not the right platforms for that.
    Secretary Spencer. Rest assured, Congressman, that is front 
of mind. 2021 is when we have our first decision point, but 
obviously we are going to address it prior to that.
    Mr. Scott. Yes, sir.
    Secretary Spencer. We will keep you informed.
    Mr. Scott. Thank you.
    Secretary Esper, Fort Stewart, we have plenty of room for 
another security forces brigade or a full brigade. I hope that 
you will consider Fort Stewart for any additional platforms or 
teams I should say. Obviously very close to the Savannah Port. 
Easy getting in and out of there. And we would love to have the 
additional men and women in Georgia.
    Secretary Esper. Yes, sir.
    Mr. Scott. Madam Secretary, Secretary Wilson, you talked a 
little bit about sustainment, the 3D manufacturing, additive 
manufacturing, predictive analysis, and how we can use that for 
sustainment operations and speaking of acquisitions. Would you 
expand on that a little bit and include in that how we are 
going to handle the intellectual property contracting and the 
data?
    It seems to me that no private sector company would pay 
somebody to develop a computer program for them, and then find 
out at the end of the contract that they didn't actually own 
the program, and how the Air Force is addressing those issues?
    Secretary Wilson. Sir, with respect to intellectual 
property, this is one where we may need to work with the 
Congress. We are pushing the limits of our negotiations on 
intellectual property on new contracts upfront.
    What we do find is that when we are trying to maintain 
older equipment, when we go out with requests for parts, that 
many of the manufacturers are no longer in business and then we 
realize we don't have the intellectual property for the door 
handle on the back door of a KC-135.
    And so, we then--and in some cases, the A-10 is one 
example, the prime contractor is not even in business anymore. 
So we are actually trying for our contracts going forward to 
get more of the data rights over time.
    There are a lot of different ways to negotiate that. But if 
we can do that we think we can reduce the cost of sustainment 
over time by keeping competition in place and by being able to 
get other people to build parts when companies go out of 
business, which they do over the 20-year or 30-year period for 
a piece of equipment.
    With respect to additive manufacturing and advanced 
manufacturing in general, we think it has tremendous promise 
for maintaining weapon systems and for the long logistics 
pipeline. So instead of having 30,000 parts, you have material, 
and you can make the parts as you need them. We think there is 
tremendous opportunity there.
    Mr. Scott. Yes, ma'am. I represent Robins Air Force Base, 
and with the CNC [computer numerical control] machining and 3D 
printing that can be done, as long as you have got the 
schematic and the raw materials you can manufacture the part 
right there as you need it.
    So, I certainly appreciate all of your service. Look 
forward to continuing to work with you. And with that I yield 
the remainder of my time.
    The Chairman. Mr. Norcross.
    Mr. Norcross. Thank you, Chairman.
    Last year, we had General McDew, TRANSCOM [U.S. 
Transportation Command] commander, talk about some of the 
challenges he faces each and every day. And one of the items he 
talked about that keeps him up at night are the refuelers, we 
heard some questions earlier today.
    We go back in time, late 1950s, our KC-135s came online. 
And in the early 1980s, the KC-10s. We have been looking at a 
replacement plane for those refuelers for about a decade.
    Secretary Wilson, we are here talking about acquisition 
reform. Given that the dates for these KC-46s have slipped from 
August of 2017 to January 2018, we are not sure what exactly 
the timeframe is now.
    What would you do differently in the acquisition process to 
avoid some of the issues that we are looking at right now?
    Secretary Wilson. Sir, one of the first things to point out 
is that it is a fixed-price contract with Boeing. So they are 
not getting any more money from us.
    Mr. Norcross. But the timeframe?
    Secretary Wilson. But the time is an issue and schedule is 
an issue. When they had the last slip of schedule we got 
consideration from them, so they gave us--they basically 
compensated the government for their lateness on the schedule.
    I expect that that will be an issue in the coming months 
with Boeing as well for these most recent slips. We will also 
probably have to keep the KC-10s on longer unless they are able 
to catch up with producing aircraft once they get the line 
clear and get these problems worked out. And I expect that we 
will be working with them on that as well.
    Mr. Norcross. But in terms of moving forward, what would 
you have done differently if we faced the challenge of picking 
a new contractor today? Would you have structured it different? 
Would you put certain deadlines? I mean, this is a serious 
issue as you well know, as anybody who flies a plane knows. How 
could we avoid it next time?
    Secretary Wilson. Sir, I do think that there is a place 
here for fixed-price contracting. And I think that in this case 
having done a fixed-price contract with Boeing was the right 
thing to do. And they are not--and we have other contracts 
where quite frankly I think we have more risk and we don't have 
a fixed price.
    I do think that in this case, one of our frustrations with 
Boeing is that they are much more focused on their commercial 
activity than they are in getting this right for the Air Force 
and getting these airplanes to the Air Force. And that is the 
message we took to them in Seattle last week.
    Mr. Norcross. So as you pointed out, there is a fixed price 
in--from the dollars and cents that is great. But extending out 
the two craft that we talked about, three additional years at 
minimum?
    Secretary Wilson. I----
    Mr. Norcross. You wouldn't change a thing in----
    Secretary Wilson. No, I share your frustration, sir. I was 
not here at the time and I guess I have not thought in deep--I 
am not the kind of person who thinks about what I would have 
done in the past had I been here.
    I do not really think that way too much. My focus right now 
is to get the aircraft from Boeing and get them up there 
flying, so that we can modernize the fleet. We currently have 
457 tankers; that will grow to 479. And as the KC-46 comes 
online, we will retire the KC-10s.
    Mr. Norcross. Thank you. I yield back.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    Secretary Spencer, good to see you. I listened very 
carefully to your opening remarks and I appreciate two words I 
heard loud and clear, one was people and the other was, 
urgency. In your written testimony you say that the 30-year 
shipbuilding plan sets, quote, ``The conditions for an enduring 
industrial base,'' close quote.
    Industrial base is people. The people that work at the now 
just seven shipyards to build the Navy, the Navy ships. 
Unfortunately, your acquisition plan for small surface 
combatants fails to provide for an enduring industrial base. In 
fact, it will erode the industrial base for those ships. The 
Navy requested only one littoral combat ship [LCS] for fiscal 
year 2019 before the transition next year to the frigate.
    Now, the threshold problem is that Navy was supposed to 
have gotten the frigate done for fiscal year 2019. And that 
predates you. But you used the word urgency, the Navy has not 
had urgency about this. So we are in the conundrum we are in 
right now because of a lack of urgency. And I have to tell you, 
Mr. Secretary, since you have come onboard I haven't seen the 
Navy pick up the urgency on this program.
    In fact, I see the opposite. I think you are slowing down. 
In fact, some people from the Navy have been to the shipyard in 
my hometown and said they want to know what happens if it 
slides further from fiscal year 2020.
    So, I think the urgency is missing there. Both of these 
shipyards that are making LCSs now are telling us that if we go 
to one littoral combat ship that they will have a dramatic 
erosion of the industrial base.
    They will lay off thousands of shipyard workers and would 
look at the prospect of losing one or both of those two 
shipyards, shrinking the number of shipyards from seven to 
five. That is the industrial base.
    Now, Admiral Neagley, who is the LCS program executive 
officer, I know you have renamed that program, but he was at 
the time when he said this. He has testified that the optimal 
sustaining rate for both shipyards is a total of three ships 
per year, and that is where we have been authorizing and 
appropriating in the last several years.
    At the beginning of this month, Assistant Secretary Geurts 
said before this committee that, quote, ``Certainly, one LCS a 
year is not near the optimal rate,'' close quote. And said 
further, ``That this will probably cause some work turndown in 
those yards as we build back into the frigate,'' close quote.
    And you yourself said to the Defense Appropriations 
Subcommittee just a little while ago that the purchase of a 
single LCS was, quote, ``Not optimal,'' close quote. Okay. You 
may say that you are concerned with the enduring industrial 
base, but it seems to me you have overlooked the industrial 
base problem we are facing this year.
    So please tell me, sir, why we in Congress should accept a, 
quote, ``not optimal,'' close quote request for the littoral 
combat ship program.
    Secretary Spencer. Thank you, Congressman. First of all, I 
could not disagree with you more about urgency and I would like 
to invite you over for lunch and show you the programs we are 
doing.
    We are going to bring the frigate on from first discussions 
in 2018 to contracts award in late 2019 and get that thing out 
the door in 3 years after that. I would like to see a 
comparison to any other platform we have done on that timeline.
    And that is what is happening under my tutelage just so you 
know. But to address the question at hand which I totally agree 
with you, we have to have a balanced flow through the 
industrial base.
    The way that we are looking at it now, I can only deal with 
what I am funded directly in the budget request. If in fact, 
and we have had success right now of finding the dollars in 
reformation inside the Department, can I allocate those dollars 
for other platforms.
    I am being told, yes, now, I can do that. And that is what 
we are doing. If you look at the $650 million that we actually 
extracted from de-obligation discipline, that would be an 
example of something that could be put towards another 
platform.
    That is the portfolio management we are struggling with. I 
totally understand where you are coming from. I am working 
within the confines that I have. Is my desire to keep everybody 
healthy? Yes it is. Will we work to get everyone healthy? Yes, 
we will do everything within our bounds.
    Mr. Byrne. Well, I appreciate and I accept your offer for 
lunch, by the way. Be happy to come over there. I was listening 
to some of the questions to Secretary Wilson. Ten years ago 
last month, the tanker was awarded to a different company, a 
company that has produced a tanker that is fueling American 
jets when we are working with our allies in NATO in Australia.
    If we had gone with that company, we would have a tanker 
right now. You have got programs at Wisconsin and Alabama that 
will produce your frigate for you, right now. You do not need 
to go to other companies.
    So I can't wait to have our lunch because I look forward to 
talking to you about how we can avoid the mistake the Air Force 
made when they did what they did on the tanker program, so that 
we can have a frigate quicker and substantially under the cost 
that we are hearing from the Navy. With that I yield back.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    I have a question about, we have had a lot of talk about 
cyber and artificial intelligence, and we mentioned briefly the 
conflict in space. We have not specifically mentioned China's 
development of anti-satellite weapons and how they now claim to 
be able to take out the majority of our satellites within 28 
hours, 48 hours rather at the beginning of a conflict.
    These are game-changing developments in our strategic 
balance. My question to the service secretaries is how are you 
working to address these as a whole? And how are you 
coordinating your development of AI, of cyber capabilities, of 
autonomous vehicles, and whatnot amongst yourselves?
    Secretary Wilson, would you start?
    Secretary Wilson. Thank you, sir. Let me start out with the 
cyber side. In our budget, we actually look at what are the 
biggest challenges we are facing on cyber. One of them is the 
area of joint cyber warfighting.
    And for us, we actually have $71 million in our budget for 
joint cyber warfighting command and control systems. And so, 
that is intended to meld together the different cyber tools we 
have so that a commander can see everything and be able to 
apply those to the fight.
    With respect to space and your comment with, specifically 
with respect to Chinese capabilities, without going into too 
much detail the things we worry about are jamming, direct 
ascent anti-satellite weapons, which the Chinese demonstrated 
in 2007, and they also have claimed certain co-orbital 
capabilities. Our job is to ensure that we deter any attack on 
our satellites, we are able to defend when someone attacks our 
satellites, and we are able to continue to operate in spite of 
any country's attempt to interfere with satellite 
communications.
    There is not a military mission today that does not in some 
way depend on space. And I think all of us at this table 
understand that. And it is our obligation to accelerate our 
ability to defend those assets on orbit and to make clear to 
any adversary that if they attack us in space, we will respond.
    Mr. Moulton. Madam Secretary, you said earlier that it is 
clear to our adversaries that we are the unequivocal leader in 
space. Do you feel confident today that we have the resources 
to defend against such a Chinese attack?
    Secretary Wilson. Sir, I would like to go into some detail 
with you in classified session on that matter if I could.
    Mr. Moulton. Okay.
    Secretary Spencer.
    Secretary Spencer. If I look at earlier in the testimony 
that we were here, Secretary Wilson hit the nail on the head. 
We as three secretaries are meeting with regularity, and one of 
the first programs that we decided to focus on was S&T.
    We put our top three or four programs that we are working 
on, and ironically, I think three of them overlapped. And we 
are now working with Mike Griffin and others to see how we can 
best pool our dollars to make sure that we are going in the 
most effective and efficient manner most expeditiously, rather 
than going up three stovepipes separately.
    Mr. Moulton. Secretary Spencer, China has made an 
unequivocal statement that they intend to be the world leader 
in AI, in artificial intelligence, by 2020 or 2030. Are you 
prepared to counter that statement? Do you think----
    Secretary Spencer. I think we have to. And we have to put 
the resources against it. If I look at the assets available to 
us, the Naval Postgraduate School is a fine example. It's a 
national treasure that we need to leverage in this area.
    Mr. Moulton. Secretary Esper, if I may change subjects 
briefly because I am running out of time, I am concerned about 
numerous reports that my office has received about a reduction 
in training standards of our ground forces.
    Now, this applies, Secretary Spencer, to reports we have 
heard from the Marines as well. But if you could answer, do you 
intend to allow any reductions in training standards, which 
seems to me would counter the emphasis that you have put on the 
need to have a ready force?
    Secretary Esper. Thank you, Congressman. We are not 
reducing training standards. If anything we are increasing 
them. For example, we are looking at a new physical fitness 
test that will improve across the board the physical fitness of 
our soldiers and prepare them for the demands of combat.
    We are looking at a change to basic training that would 
extend it and also put additional skills in there and a 
crucible type exercise at the end. So there are a number of 
things that we are doing to enhance the readiness of the 
soldier both physically and tactically and with their skills so 
that they are ready----
    Mr. Moulton. Secretary Spencer, can you just comment 
quickly on the reports of the Infantry Officer Course in the 
Marine Corps lowering the standards?
    Secretary Spencer. Yes, no standards are being lowered, 
Congressman. One of the things that we did do was we amended 
the actual logistics on how people go through the IOC course, 
but standards remain the same.
    Mr. Moulton. Thank you, Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    I want to first note for the record that I remain strongly 
opposed to the Army's decision to close down Apache battalions 
in the National Guard while at the same time growing attack 
aviation battalions from scratch in the Active Duty force.
    As I have said many times, this wastes millions of dollars, 
thousands of years of specialized experience invested in 
hundreds of pilots and maintainers. We went to the mat to fight 
for more resources for our military over these last months.
    And the very week the budget deal was signed into law, a 
combat ready unit in Arizona was told to transfer its Apaches 
and shut down. And a Pennsylvania company will come home from 
deployment and lower their flag.
    I don't want to take the rest of my time to hear again the 
justification for this decision, but I want to note for the 
record my very strong opposition.
    On to another attack asset. Secretary Wilson, 2 years ago 
we sat in a similar hearing with previous Air Force leadership 
arguing strongly about the need to keep the A-10 Warthog. We 
won. Since then the A-10 has been pivotal, shwacking ISIS 
[Islamic State of Iraq and Syria], deployed to the European 
defense, been ready south of the DMZ [demilitarized zone], and 
we have now been sent back to Afghanistan.
    I am grateful for your support for this critically unique 
capability, including funding for the A-10 in the last two 
years' budget request and the commitment to the re-winging of 
the remaining 109 of the 281 A-10s that need it.
    There have been some reports though that divestment will 
still commence in a few years and other public statements 
saying it will fly well into the 2030s and beyond. So can you 
state for the record how long you plan to have the A-10 in the 
inventory?
    Secretary Wilson. Ma'am, we expect the A-10 to continue 
flying at least until 2030. The fiscal year 2018 budget, if the 
omnibus comes out in the way that we expect it to, will restart 
the line for the re-winging and will include enough money for 
about 4 more re-wings on top of the 170-plus that are already 
re-winged.
    The fiscal year 2019 budget request includes $80 million 
for additional re-wingings of the A-10. We will go out for a 
bid, but we think that will get us between 8 and 12 more in 
fiscal year 2019.
    Ms. McSally. Great. Thank you for clarifying that. And I 
want to--I know you mentioned in your testimony but if you have 
any insights on in order to conduct the National Defense 
Strategy, we are down to now 55 fighter squadrons, we used to 
have 134 fighter squadrons around Desert Storm, and many of 
those squadrons are actually 18 PAA, primary aircraft assigned, 
versus the 24 PAA we had in the past.
    So how many fighter squadrons do you think you need in 
order to execute the National Defense Strategy?
    Secretary Wilson. Congresswoman, we currently have 56 
fighter squadrons. We have just gone through a 53-day deep-dive 
exercise on readiness. And we are also looking at the total 
number of squadrons required to execute the National Defense 
Strategy.
    And so, we are doing that over this year leading up to the 
fiscal year 2020 POM [program objectives memorandum]. I would 
say that one of the things on readiness that we are really 
focused on is the 301 operational combat squadrons and how do 
we better support the structure that we have.
    The guidance in the National Defense Strategy was to 
increase capability before we increase capacity. In other 
words, make sure we have got ready forces now before we just 
try to expand force structure.
    Ms. McSally. Great. Thanks. So you expect when you will 
have a sense of how many squadrons you----
    Secretary Wilson. Ma'am, I think we need to do that in 
preparation for the fiscal year 2020 budget submission, which 
for us is the over the next 6 months.
    Ms. McSally. Okay, great. I know there has been some 
discussion as to whether that will, as you are growing, if we 
keep the A-10 into the inventory which I appreciate, well into 
the 2030s whether that will be the nine squadrons that we 
currently have or going down to the six.
    I am concerned at the rate that will be re-winging the 
remaining 109 that we are going to have a bathtub and lose that 
capability, so can you comment at all about where that fits in 
there, and are you looking to build squadrons back from 18 to 
24 PAA in the process?
    Secretary Wilson. Ma'am, one of the issues on 18 to 24 
aircraft per squadron is what does it do for readiness, 
particularly when you do split operations which you understand 
better than--certainly better than I do and a lot of other 
people.
    And that is one of the things we are looking at when we are 
going into a high-end fight. And one of the things we have seen 
is that over the last 17 years we have been cannibalizing the 
Air Force to roll forces forward on a mature infrastructure and 
command and control.
    That is not what we are being asked to do in the new 
National Defense Strategy. So how do we organize ourselves for 
that high-end fight, and it affects A-10s as well as all of our 
other aircraft.
    The other thing that I would also mention with respect to 
squadrons is that we have the continued funding in our budget 
for the light attack aircraft, which is not a substitute for 
the A-10, but could expand the number of squadrons that we have 
in this 5-year period.
    And our intention is to try to use light attack aircraft to 
reduce the operating tempo on fourth- and fifth-generation 
aircraft that should be focusing on training for the high-end 
fight.
    Ms. McSally. Great. Thanks. I am over my time.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chairman.
    I thank you all for being here. All of you have mentioned 
that we need to take the necessary steps such as investing in 
modernization and further improving the acquisition process to 
ensure our service members have the best capabilities and 
training for mission success wherever they go.
    However, one of the most important responsibilities is not 
just that they are ready to fight, but ensuring that they are 
healthy and fostering positive morale and well-being. And a 
part of that is looking at the conditions of their daily lives.
    We are focusing on modernizing our capabilities, but I also 
want to make sure we are also taking a close look at the 
conditions where our service members eat and sleep. For 
example, I represent Camp Roberts in my district. It is a 
National Guard base where they train and house soldiers and 
Marines year-round. Many are trained and housed at Camp Roberts 
before they are deployed. And what concerns me is that they are 
allowing these service members, we are allowing these service 
members to sleep in facilities that are World War II era. And 
many of which I believe should be demolished and replaced. Some 
of these buildings are contaminated with asbestos and honestly, 
I believe this is unacceptable. I am fully aware these 
conditions are prevalent among a number of bases and 
installations.
    And I understand military construction funding is all but 
vast. But as we look to modernizing the military, this is an 
area that cannot be ignored. Is this something that services 
are focusing on? Is there a capital improvement plan? Are there 
any timelines where our investments are focused as priorities? 
And how are we ensuring that our service members are not just 
being provided the best equipment and training, but the best 
accommodations?
    Secretary Esper. Thank you, sir. I will take a response to 
that question first. As I travel around the Army, and I have 
done a lot of that in the last 3 months, I spend a lot of time 
talking with soldiers across all components. And in my 
conversations with soldiers, we talk about these types of 
issues. And with regard to the Guard, I know there are those 
concerns out there with regard to facilities. So, I am not 
familiar with the situation at Camp Roberts. What we do do is 
endeavor as we look at our military construction projects to 
make sure that we bring all of our soldiers' living conditions 
up to a certain standard. I think the Guard prioritizes within 
their component, but this is something I will take back and go 
look at Camp Roberts and find out the specifics there, because 
I have not heard about this situation.
    Secretary Spencer. Congressman, as far as your Navy-Marine 
Corps team, when we talk about quality of life and specifically 
infrastructure, interestingly enough, when I talk about 
infrastructure and address it, it is under the readiness 
column. We truly believe that not only well-being of our 
people, well-being of our equipment, et cetera and the 
infrastructure that supports it is a major component of 
readiness. It has always been an anathema to me that we fund at 
70-plus percent.
    We have moved it up. We are going to fund this year at 80 
percent of the needed requirement.
    But, this is where we get down to the painful nature of 
portfolio management as to where dollars should go. It is 
readily apparent not only with our soldiers but out in the 
Pacific Northwest at the shipyards, we went and saw people who 
are working on lathes with tents over them because of what was 
falling off the ceiling above them. Thank God we have workers 
that can actually put up with those conditions and keep 
producing for us, but we have to focus on the infrastructure, 
yes.
    Mr. Carbajal. The last thing I will ask all of you and if 
we run out of time, if you could get me some answers, you know, 
we always hear about the continuous process improvements that 
all the branches are taking to modernize, to modernize our 
acquisitions process, all kinds of things that we are doing. 
But because of change of commands, how do you ensure that there 
is continuity of implementing priorities and implementing these 
continuous process improvements within personnel so that they 
could withstand change in their commands at different levels? 
How do you case manage that as branches?
    Secretary Esper. If you are talking writ large, 
Congressman, what we do is we have very established metrics, if 
you will, with regard to readiness that assesses training, 
equipment readiness, personnel deployability, et cetera with 
hard metrics that we continue to try and make more and more 
objective.
    We do the same with regard to infrastructure in terms of 
the conditions of barracks or quarters or buildings. And, so 
the enduring piece of that is of course those metrics 
complemented by the fact that, you know, as the civilian 
workforce, which is fairly steady and not changing as much as 
uniform military, gives us also the means to track and ensure 
there is continuity throughout the process.
    Mr. Carbajal. Thank you, I am out of time. If you can get 
me that in writing, I would appreciate it.
    I yield back, Mr. Chair.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman. And thank you, 
Secretaries, for being here. It is quite an honor to have all 
of you here at the same time.
    First of all, Secretary Wilson, I disagree that 50 percent 
of us would have thought of their mothers. I think that number 
would be closer to 90 percent, if not greater. And I truly mean 
that. They are the protectors of all our families and I think 
your number--I think it was well said but I think the numbers 
were too low.
    Second, Secretary Esper, I want to go back to the Apache 
issue. You cannot do 18 ships in a Guard unit and 24 in an 
Active Duty unit and tell me that they are the same. That is 
just not true. If we are going to buy this One Army, we have 
got to look the same across the board. We can't do it with 
Charlie models while the new Active guys get Echo models, that 
doesn't work.
    And so, we have the best maintainers and pilots in the 
world in the Army National Guard, Apache pilots. They have more 
experience and our maintainers have more experience than their 
Active counterparts and I would just ask that we really push to 
make sure that we do not do away with that combat aviation in 
the Army. And I know you are all working on it, but I think ARI 
[Aviation Restructure Initiative] got it wrong and I think the 
18 versus 24 ship is not a fix and I think long term it is 
going to cause issues. So, I just hope you will relook that.
    Second, I want to talk about engineers. We have been 
talking about new engineer equipment since I joined and got 
commissioned as an engineer lieutenant in 1988. And we are 
talking about new short gap crossing and wet gap crossing and 
all those things and we have all kind of plans and equipment, 
but we have never implemented any of those. And so, we still 
have the same bridges that we had when I was a second 
lieutenant in 1988, the same AVLB [armored vehicle launched 
bridge]. There is technology that is stronger, lighter, quicker 
that we can do.
    Sometimes though I think we forget about our engineer, our 
gap crossing, and if we do not have mobility or freedom of 
movement, we cannot do anything. And so, I hope that the Army 
will look at not just talking about what the new plans for our 
mobility is, but look at the bridging requirements that we have 
in some theater of operations. We won't always fight in Iraq 
and Afghanistan.
    And, I really do not need a question. I hate that. But, I 
think you are doing a great job. Continue that, but those are 
two things. And, I do want to touch one more thing on as far as 
how we live as the Guard; let me just tell you, many times when 
a Guard unit mobilizes, they live in lesser conditions that the 
Army would not even live in. And if it is because we are 
practicing being remote, I am fine with that as my 155 soldiers 
are about to do at Bliss. But if the Active Component is not 
doing the same thing, we need to fix that. And we do not need 
to ask the Guard guys to live in tents when the Active guys are 
living in nice barracks.
    So, I just want to make sure it is for the right reasons 
and thank you so much for your service.
    Secretary Wilson, ISR [intelligence, surveillance, and 
reconnaissance], the JSTARS, that is a mistake. Let me tell 
you, when you have a thirst for intelligence as all our 
services have and we are talking about taking a platform out of 
service to have something that replaces it in 2035, yet the 
requirements are not going down, that is not an acceptable 
answer for a guy who lives and dies by the intelligence on the 
ground.
    So, can you tell me there is a plan in place to do 
something for the intelligence that JSTARS is currently 
collecting between now and 2035 when the replacement starts 
coming online?
    Secretary Wilson. Yes, sir. One of the things that makes 
this possible is in fact the assessment that we will continue 
to fly JSTARS through the mid-2020s. So what we are doing here 
comes in three increments.
    The first increment is kind of now to 2023 where we will 
have the current JSTARS. We will build additional MQ-9 Reapers 
that have ground moving target indicators. We will modernize 
the E-3G AWACS [Airborne Warning and Control System] system 
including support for the new ground moving target indicator 
software and we will enhance their Link 16 capability which has 
to do with their communications as well as building additional 
space-based capability with the National Reconnaissance Office. 
So, that is the first increment.
    The second increment starts in----
    Mr. Kelly. If I can let you finish the other, I will just 
tell you, I think there is still an ISR capability gap from 
2025 to 2035 that we can't afford and I am sorry, but I wanted 
to get with Secretary Spencer real quickly.
    This hospital ship is a big deal and the same thing, we do 
not need to be talking about what we are going to do in 2021 
about removing something from the inventory. We need to have a 
replacement before we remove that, whether that means upgrading 
what we currently have or getting something else.
    My understanding is, and I may be wrong, tell me if I am, 
is that we have a national security requirement for two 
hospital ships, yet we are not going to meet that starting in 
2021 because we are retiring one of the two hospital ships, and 
again, that is a capability gap in soft power and also serving 
our ally or serving us at a time of war.
    Just can you assure me we are not going to have a 
capability gap in hospital ships?
    Secretary Spencer. Congressman, I can. Much like the 
Ticonderoga, it was coming up for decommissioning and we put a 
SLEP program, a service-life extension program on. We will 
address this and make sure that we do not have the gap.
    Mr. Kelly. Thank you, Mr. Secretary.
    And, I yield back, Mr. Chairman.
    The Chairman. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    I want to thank each of you for not only your service to 
our warfighters and their families, but also to each of you for 
your prior service in uniform. Thanks for being here today.
    Secretary Esper, it was a pleasure meeting you, sitting 
down with you 2 or 3 weeks ago in my office. I would like to 
follow up on the Army Futures Command and ask you a question or 
two about that.
    You identified that as one of your three priorities to 
improve modernization. You said today as well as in your 
written statement, it is integral to reforming our acquisition 
process. Your Under Secretary McCarthy has sort of 
characterized it as a realignment. You have characterized it as 
a consolidation. General Murray testified last month on the 
Senate side. He testified that it is projected, the Army 
Futures Command is projected to be at least initially 
operationally capable by June or July of this year and fully 
operational next year.
    When are we going to see a concept plan or some other 
document that sort of, at least in an outline form, lays out 
the purpose, the organization, the resources, what the 
realignment and consolidation might consist of? When will see 
something like that?
    Secretary Esper. Sir, the Under Secretary of the Army will 
be coming up this week to brief the committee staff on it and 
members who are interested.
    Mr. Brown. Great. Well, while you are here, can you make 
your best elevator pitch? Because there are some skeptics, 
there are a lot of supporters, what is the pitch, why a new 
command and new processes and not just improving current 
processes in existing commands?
    Secretary Esper. Well, I think--I do not need to cite some 
of the past failures the Army has had with regard to major 
acquisition programs. When you look at the various reports that 
have come out in the past such as the Decker-Wagner report and 
testimony of experts in committees such as this over the years, 
they cite a number of consistent items, first of which is a 
requirements process which is unwieldy and is in some ways 
never-ending. And they speak to a culture of risk aversion, and 
they speak to a lack of accountability. So those are just three 
things. There is a longer list, of course.
    What the Army Futures Command proposes to do is to take 
these disparate functions that are currently spread out across 
the Army and align them. So you could either say you are 
aligning them or you are consolidating, but the bottom line is 
you are putting under a single commander who is now responsible 
for materiel acquisition from concept all the way through 
production.
    Sustainment will remain with Army Materiel Command. And so 
that is what you have. So, you have a single person 
responsible. You have accountability. You have unity of effort, 
so now a single commander can work that technology from, again, 
concept S&T, all the way through. You can utilize the lessons 
we have learned so far with regard to the use of the cross-
functional teams whereby you bring everybody to the table at 
the beginning of the process. You bring the PMs [program 
managers]. You bring the contractors. You bring the budget 
folks. You bring the testers all the way around and you make 
sure they sit at the table when we discuss requirements then 
and there, so that you don't get requirements----
    Mr. Brown. But, we will see something next week?
    Secretary Esper. You will be briefed if you want and 
certainly the staff will be briefed this week on some of the 
details.
    Mr. Brown. Thank you.
    Secretary Spencer, I had some of that good Navy coffee. I 
was aboard the USS Gonzalez just last week in Norfolk. And I 
was on the bridge. I was on the bridge on that destroyer. Last 
year I was on the USS Nimitz, and as you know that space is 
very busy, a bridge on a destroyer or an aircraft carrier. It 
is sophisticated, a lot of requirements, a lot of technology, a 
lot of moving people.
    That same day I visited a simulator, a bridge simulator, 
and we looked at the USS Porter scenario which happens in the 
Strait of Hormuz and now they will be training on the 
Fitzgerald and McCain simulation.
    My concern that I want to raise to you is I was struck by 
the disparity in the level of, let us say, modernization on a 
real deck or bridge and the lack of sophistication in the 
simulators. It would be like asking an F-35 pilot to train on a 
F-4 Phantom simulator. I would just ask that you take a look at 
that and as we are fielding a variety of vessels in the Navy 
that we give our seamen an opportunity to train in what I think 
would be a more realistic scenario, which is a space that more 
closely resembles what they will actually be driving on the 
high seas and in the narrow straits.
    Secretary Spencer. Congressman, I look forward to inviting 
you over probably this fall to see some of the new training 
aspects that we are going to introduce to the fleet. The CR 
[Fleet Comprehensive Review] that was signed out by the CNO 
addresses our biggest dollar request out of the CR which is 
bridge commonality, to bring the technology amongst all the 
surface ships we have into some sort of uniformity and the 
training that go along with that.
    Mr. Brown. Great. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I want to thank each of you for your service. You are 
serving at an incredible time. This is the time where Congress 
will be reversing the cuts and diminishing of our capability in 
our military and providing funding for the purposes of 
rebuilding, trying to address the issue of readiness, trying to 
address the issues of stalled modernization and then look to 
the future as to what other modernization that we need to do.
    Now some of our programs that we have currently ongoing, 
Madam Secretary I want to ask you a question about the F-35, a 
couple of questions. One, you know, as you know as we look to 
the F-35, one of the major criticisms are cost, and that 
relates both to production and to sustainment. We always think 
of a to-do list with respect to the contractors that are 
involved, but what things should we be looking to that are our 
responsibility that we could do better to help reduce those 
cost with the F-35, both in sustainment and acquisition.
    And then secondly, the Nuclear Posture Review recommends 
that the United States retain the longstanding ability to 
forward deploy dual-capable aircraft. Part of that is dependent 
upon our NATO allies and right now our NATO allies are going 
through the process of determining whether or not they 
participate in the F-35 in its dual-capable aircraft 
capability.
    Right now, Belgium is in the process of making a decision 
that may not go in our favor, and certainly would affect that 
ability. So if you could give us a description of what should 
we be doing on--what is our to-do list with respect to reducing 
cost. And secondly, on the dual-capable aircraft, what else 
should be on our to-do list to ensure that our allies 
participate and that we are able to keep that important 
capability of forward-deployed aircraft?
    Secretary Wilson. Thank you, sir. With respect to the F-35, 
there really are two pieces; one is the purchase price and the 
second is sustainment. With respect to the purchase price, for 
the F-35A by fiscal year 2019, we expect the purchase price to 
be less than $80 million a copy for the F-35A, which actually 
compares favorably with fourth-generation aircraft. So the 
capability that we get with the F-35, particularly when you 
combine it with other systems in the air, is actually quite 
good value for the money.
    We are continuing to drive down the cost of purchase, and 
as you know, this is a joint program that is managed by the 
Office of the Secretary of Defense for all of the services. But 
I have been pleased to see their seriousness in their 
negotiating with Lockheed Martin to drive down the cost of the 
purchase price.
    We are now shifting to look at the sustainment issue. And I 
think as customers for the F-35, we have been a little bit 
frustrated at how quickly or not quickly we have moved forward 
to look at sustainment and making sure that we have the parts 
and competition for parts going forward to drive down those 
costs.
    I think the F-35 is probably a good example of where we can 
use new ways of getting parts and supplies, and we had a 
discussion about that here before on intellectual property, and 
new ways of doing advanced manufacturing and advanced 
logistics, predictive maintenance to drive down the cost of 
sustainment and to get airplanes in the air at a cheaper cost.
    With respect to the allies and the dual-capable aircraft, 
if I could take that question for the record, I will get you a 
more full answer.
    [The information referred to was not available at the time 
of printing.]
    Mr. Turner. Thanks. Now turning to the Army, Mr. Secretary, 
part of our European Reassurance Initiative also included 
forward deployment of capability, and we found in undertaking 
that that a number of the allies did not have infrastructure 
that would allow basic equipment to move across their borders 
or even through their country, which of course inhibits our 
ability overall to defend that territory.
    As part of that, the European Reassurance Initiative had a 
number of costs that the United States taxpayer was billed to 
fix those things. How do we capture what those bills were and 
make certain that our allies fix those permanently?
    Secretary Esper. Yes, sir, you outlined a very critical 
problem with the European theater, as I have been able to talk 
to units that come back from training there and during my 
visits there, you are correct. There are infrastructure 
challenges that prevent or inhibit intra-theater movement, so 
it is everything from inadequate bridging, paperwork, 
insufficient road networks. And I have talked to European 
allies about it and I know it is something they are addressing.
    With regard to dollars in ERI [European Reassurance 
Initiative] or EDI [European Deterrence Initiative] that goes 
specifically to that, I am not familiar with that, so what I 
would like to do is take that back for the record and get you 
an answer.
    Mr. Turner. Great, thank you.
    [The information referred to was not available at the time 
of printing.]
    Mr. Turner. Madam Secretary, we undertook a study on Space 
Corps that is in the [inaudible] National Defense Authorization 
Act. We expect that report to come out. What are some of the 
things that you would expect to be in the report?
    Secretary Wilson. Sir, we gave you kind of an update on 
where we are in doing that assessment, but the assessment won't 
be complete until August. But I think one of the areas where we 
are making a lot of progress right now is focusing on 
acquisition, and Space and Missile System Center out in 
California is leading that effort to look at how do we move 
faster with acquisition in space and then how do we 
systematically focus on innovation in the area of space.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    This is a general question for the panelists. Russia will 
likely never actually present us with an Article 5 violation, 
instead they will act like petulant little teenagers as I have 
said this before many times in this committee and just try to 
do just go below a full invasion, but enough to I think cause 
havoc for our allies, whether it is hybrid warfare or other 
pre-stage invasion plans.
    So what are we doing specifically to fortify ourselves, our 
NATO allies as well as our near-NATO allies, such as Sweden and 
Finland, in preparation for some type of action of that nature 
that Russia would likely take? And we could just start with 
Secretary Esper and move to the right.
    Secretary Esper. Well I think as we have discussed, funding 
such as the European Defense Initiative gives us a lot of 
additional funds to conduct these heel-to-toe armored brigade 
combat deployments every 9 months to and from the European 
theater. That provides great assurance to our allies where they 
are deployed.
    We also have forces deployed in Poland providing 
reassurance and deterrence there, particularly in critical 
elements. We support some of the enhanced forward presence 
packages in the Baltics. We are conducting multinational 
training at the Joint Maneuver Readiness Center in Germany. I 
had the privilege of being there where a Polish brigade was 
conducting multinational training with a U.K. [United Kingdom] 
Recce [Reconnaissance Corps] unit, Italian artillery unit, U.S. 
forces stationed under it.
    So we are doing a lot of things from the training aspect to 
deployment. I spoke earlier today about how we are upgunning 
Stryker vehicles and putting in an additional brigade combat 
team set in Europe, again to further enable our employment of 
forces in theater and further deter any type of Russian bad 
behavior.
    Mr. Gallego. Great. Secretary Spencer.
    Secretary Spencer. Looking at Secretary Mattis' compete, 
deter, win, he has his three primary drivers which are combat 
credible forces, a constellation of allies, and reform. Under 
constellation of allies, I can tell you, the Department of the 
Navy has been working very closely with both allies and 
friends, specifically when it comes to the Russian irritant. If 
I could bring you into a different environment, I can tell you 
things we are doing with Norway, the U.K., et cetera, but well 
known that we are talking to them actively, supporting them any 
way we can both in training, equipment, strategy, and policy.
    Mr. Gallego. Secretary Wilson.
    Secretary Wilson. Sir, I will just add to that, the 
National Defense Strategy is driving what the Air Force is 
doing and the refocus on both the Russian and the Chinese 
threats in addition to the European Defense Initiative, or 
under the European Defense Initiative which my colleagues 
mentioned, the Air Force is putting an effort this year into 
five bases which would be forward bases that we would rotate to 
in the event of conflict in Europe.
    We also have a bomber presence that we have been rotating 
through and exercises in Europe and I think those are part of 
demonstrating to our allies that we are good allies and 
partners and countries that have allies thrive and those that 
don't have allies do not.
    Mr. Gallego. Thank you.
    Secretary Wilson, I just actually met with the former 
Supreme Allied Commander General Breedlove and he published an 
issue briefing calling for a significant beefing up of our air 
defense plans and capacity in the NATO airspace. What are you 
proposing to enhance our capabilities and capacity to respond 
to threats--to those threats and to our allies also?
    Secretary Wilson. Sir, our budget proposal includes I think 
it is $11 billion total for next-generation air dominance. It 
is a family of systems approach that intends to be able to gain 
air superiority including in contested domains, which is what 
we find in Europe and also in the Indo-Pacific. In that family 
of systems, there will be renewed emphasis on electronic 
warfare which we do in concert with our allies from the Navy.
    But when you think of air dominance and air superiority, no 
country can put a wooden block over in its airspace. It is more 
like Swiss cheese. And our effort as an Air Force is to try to 
exploit the holes and take down those air defenses so that we 
can operate as a joint force in Europe.
    Mr. Gallego. Thanks. And Mr. Spencer, if we control the 
sea, we control, obviously, our fate. Specifically talking 
about Russian aggression, what are we doing right now in terms 
of our wider national security strategy to make sure that we 
have dominance in the Atlantic, the Baltic Sea, and the Wadden 
Sea to counter what I would say is Russian aggression right now 
for later stage war?
    Secretary Spencer. Topically, Congressman, I can address 
some things right now, but I would like to do it in a different 
environment. We can get much more granular. But needless to say 
it is both in the air, on the sea, and under the sea where we 
are focusing on all movements in that area.
    Again, in concert with both our other two services when it 
comes to on land, in air, it is a fairly well tightly woven 
tapestry.
    Mr. Gallego. Thank you. I yield back.
    The Chairman. Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    There was a comment made at the beginning of the hearing, I 
do not know if it might have been the ranking member, but to 
the effect of this will likely be the largest the defense 
budget will be over the course of the decade. I hope that is 
not the case because that means we would have failed in our 
effort to rebuild the military. And I just bring that up to 
suggest that the topline fight, while we may have won an 
initial skirmish here, is going to be increasingly important 
and more difficult precisely because we are giving you more 
money going forward, and we are going to need your help in 
making the case.
    And I would like to follow up at some point on Moulton's 
question about lowering of standards for IOC [Infantry Officer 
Course] because it is my understanding that we have got rid of 
the initial INDOC, but I don't want to spend much of my time on 
that.
    Secretary Spencer, I would like to ask about the 30-year 
shipbuilding plan because I do think it is an unusual document. 
And, by that I mean, on one hand, in no uncertain terms, it 
states that a plan to achieve today's warfighting requirement 
in three decades represents an unacceptable pace with the 
worldwide threats that we are facing.
    And I just want you to elaborate if you can on the factors 
that make this plan unacceptable from the Navy's perspective 
and why the Navy put forth a plan in the first place that 
failed to meet this basic threshold.
    Secretary Spencer. The whole reason for that document to be 
put out there, Congressman, was to have the discussion that we 
are having right now. We wanted to put forth the two curves 
that we talk about in that document. One is a curve that is 
sustainable within the budget and portfolio management that I 
have been charged with, and two, if in fact we wanted to 
enhance that curve, it allowed you to see where the industrial 
capability was to tackle that.
    I cannot sit here and balance, to be very frank with you, 
the portfolio I have, or I will rephrase that. I believe we 
have balanced the portfolio we have in the best way we have 
with the resources available to us, even with the top line you 
have provided us in that plan. Could we do it better, could we 
do it stronger if in fact there were the resources? Yes, we 
could.
    Mr. Gallagher. But does the Navy believe that it is in fact 
unacceptable for us to get to 355 ships in three decades, in 
less than three decades or?
    Secretary Spencer. If we are charged with the task that we 
are charged right with now, it is going to be difficult, yes.
    Mr. Gallagher. Okay. And then just on what my colleague, 
Mr. Byrne, brought up. I know we have had this conversation 
many times, but I just do want to emphasize that if we zero out 
additional work as we are currently at risk to do, as in no 
congressionally added LCS or EPFs [expeditionary fast 
transports] and no foreign military sales in fiscal year 2019 
to fill the gap, in your opinion, Mr. Secretary, would only one 
ship of any class, in total between the two yards be an 
acceptable outcome with respect to the health of the industrial 
base?
    Secretary Spencer. That is what I was speaking to 
Congressman Byrne about is, again, it is in our purview to find 
the resources necessary to balance the health of those--any of 
the industrial base that we have. Does one work? No, one is 
definitely not optimal. Can we sit here within our bounds and 
try to move foreign military sales to the left? That is a 
lever. Do we have the ability to actually find resources to 
fund a different platform internally within our budget? That is 
a lever.
    Those are the things that we will be looking at.
    Mr. Gallagher. I appreciate that and really look forward to 
working with you on that. I think as I have said to you many 
times, we all want the same thing. We want a robust and open, 
we want the best frigate possible, and we want to keep the 
yards alive, to make that competition robust, and also to make 
good on the investments we have made there.
    Secretary Wilson, there was a memo reportedly directing the 
Air Force to share less with the public. I am paraphrasing 
grossly, I apologize, but I am running out of time. But I am 
sure you are aware of the memo, and I just want to know, did 
concerns driving that memo originate within the Air Force or 
were they in response to external direction in the Department? 
And if so, have the other services received the same direction 
to be more closed-mouth for whatever reason, perhaps 
operational security?
    Secretary Wilson. That memo came from the Chief of Staff 
and I, and it has to do with operational security. We have an 
obligation to be transparent, but not with things that our 
adversaries could use against us. And it was time to do a reset 
and a retraining of our commanders and public affairs officials 
which we have done.
    Interesting to me, the press did not know that we had done 
the reset until they found the memo, so it obviously did not 
affect how we were engaging with the media. What we do need to 
make sure is that our commanders do not release operational 
details that are classified or that could help our enemies.
    Mr. Gallagher. I appreciate that. I think we all want the 
same thing. At the same time though, and I know I have said 
this to the Navy before, we are really going to need your guys' 
help in making the case publicly for what the fleet of the 
future looks like, what Air Force of the future looks like, so 
that we can have that public support to make the argument for a 
higher top line in a very difficult security environment going 
forward. With that I yield.
    Secretary Wilson. That is my intent, sir.
    The Chairman. Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    Secretary Esper, let me start this with you. In your 
written testimony, you stated that an important part of the 
Army's effort to maintain readiness for major combat operations 
includes this security force assistance brigade.
    Can you explain further as to why SFABs are so important 
for readiness in the Army?
    Secretary Esper. Yes, Congressman. If you look at what the 
situation has been in the last several years as we had provided 
assistance and training to our Afghan partners, what that has 
done is consumed an infantry brigade combat team, 3,000-plus 
personnel who are separated from their command, not conducting 
the missions, and therefore quickly losing their readiness. And 
in the context of what we face now, consistent with the 
National Defense Strategy, less prepared to fight these high-
end fights if you will.
    So the solution, the idea of the Chief of Staff, was to 
create a security force assistance brigade that requires fewer 
troops, in this case 816 versus 3,000-plus, that were also 
especially trained and equipped to do this type of training. 
And the personnel are specially selected. They have already had 
a company command or battalion command and so they come with it 
with their own skills as well, and the view is that this would, 
again, relieve the demand and therefore help preserve the 
readiness of our infantry brigade combat teams that have been 
doing that type of training for years now.
    Mr. Hice. Thank you. And I would just urge as well your 
consideration for Fort Stewart on that. I think we are well 
prepared for that.
    Let me ask each of you. Let me do this each of you real 
quickly because all of you have mentioned the problems with 
acquisition. Of course we have made great strides in trying to 
deal with acquisition reform on this side. But each of you have 
mentioned it and I have done a little bit of research and it 
seems that the Section 809 Panel has come out with some 
interesting ideas to try to streamline the process.
    So my question is, are each of you looking at their 
recommendations?
    Secretary Spencer. Yes, Congressman. I can tell you that we 
are. Secretary Wilson hit on something that we are really kind 
of drilling down in the Navy and that's OTAs, other 
transactions. We have had that ability to do that and it has 
always kind of intrigued me that we have not grasped that with 
greater vigor. And I think it really is just an educational 
process amongst the acquisition professionals.
    Secretary Esper. Okay. So we are making much greater use of 
OTAs for examples as well. I will tell you from over fiscal 
year 2017 and fiscal year 2016, we have seen a 60 percent 
increase in our use of OTAs. It reinforces the approach, the 
new approach we are taking whereby we prototype, test, fail, 
prototype, test, fail, repeat until we, again, refine the 
requirements and really get a good understanding of the 
technology. So that authority has been very helpful.
    Secretary Wilson. Sir, with respect to other transactional 
authorities, our light attack experiment was done under other 
transactional authority and we went with four pages of 
requirements. We went from a letter of invitation to having 
aircraft on the ramp to test in 5 months. But it is not just 
light attack. We are doing it in command, control, 
communication, intelligence, surveillance, reconnaissance. We 
have a consortium through the Air Force Research Lab that have 
plug-and-play capabilities for intelligence, surveillance, and 
reconnaissance.
    We have more than 70 companies involved in that effort. We 
use an other transactional authority for that. And we also put 
together what we call a space enterprise consortium. We 
announced it in January. We put $100 million into that pot to 
do other transactional authority agreements to get some 
innovation going and prototyping into space. We now have, in 2 
months, we have over 100 companies that are part of that 
consortium using other transactional authorities.
    Mr. Hice. So you are looking at those recommendations?
    Secretary Wilson. Yes, sir, we are.
    Mr. Hice. Okay, all right. And Secretary Wilson, you have 
already hit on this, so let me hit on the other two secretaries 
as it relates to cybersecurity and cyberwarfare priorities, how 
have you prioritized this in the fiscal year 2019?
    Secretary Spencer. It is definitely a priority. If you look 
at both the Navy and the Marine Corps, Navy Digital Warfare 
Office, the Marine Corps, the Cyber Warfare Office. We are 
totally front and center on it, staffing it and standing it up.
    Mr. Hice. Okay.
    Secretary Esper. Sir, I was very pleased when I came into 
this job a little over 3 months ago to find that the Army has 
stood up an Army Cyber Command. We have a cyber MOS [military 
occupational specialty], a cyber branch. We are building 
capabilities. We have 42 teams across the Army right now with 
another 21 coming onboard in the Guard and Reserve, and then 
thinking about how we employ them in our formation, so the Army 
is all in on cyber and we are putting the monies necessary to 
make sure that we can conduct both defensive and offensive 
operations.
    Mr. Hice. Well, I am glad to hear that. Obviously, what is 
happening at Fort Gordon with the cyber command is enormously 
critical and we all know the importance of cyber across the 
board, so I thank each of you for that.
    And with that, Mr. Chairman, I yield back, thank you.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you very much. I appreciate your 
leadership here today and what you are doing.
    One of the things that we put in our NDAA priority list out 
of our offices are trying to speed up the delivery of 
electronic warfare capabilities. For example, the replacement 
of the Compass Call. So I look forward to working with you on 
that, because I think it is really needed. We have very old 
airframes flying out now and they are used nonstop every day.
    My first question to you is we talk to the service chiefs, 
they say our readiness levels are the lowest they have been 
since 1977. Now, with the new NDAA we have upped spending by 10 
percent and if we can hold this with inflation over the next 2, 
3, 4 years, what is your prognosis on when are we going to get 
healthy again? Is it going to take 3 years, 5 years? If we can 
hold it with this spending level with inflation.
    Secretary Wilson. Sir, we are actually, and I mentioned it 
before, doing a deep dive on readiness to see if we can 
accelerate the readiness recovery, particularly with the 
frontline forces, the blunt forces if you will. I would say for 
the Air Force, readiness recovery is first and foremost about 
people. We lost 30,000 people in the Air Force in the wake of 
sequester, and we have hollowed out a number of units, 
particularly on the maintenance side of things, but also on 
logistics, and so we need to put people back.
    We are recovering on the maintenance side, but now I have 
got to season those people from being apprentices up to being 
master craftsmen. The second area is parts, spare parts, and 
spares. So we are putting a fair amount of money into that. And 
the third has to do with training, and having the right 
simulators and the right ranges to be able to train and prepare 
for the high-end fight.
    I think we just got this report from the readiness task 
force that we stood up, and I may have more information to 
share with the committee once we completely digest it as to how 
we think we can get back to readiness faster.
    Mr. Bacon. Thank you.
    Secretary Spencer. If I am to look at the Navy, sir, every 
single major readiness account is funded either to 100 percent 
or industrial capacity except for infrastructure which is 
funded at 80 percent. The easiest algorithm to use for the Navy 
is cycle, deck-to-dwell, so we want to make sure we can get 
back on a deck-to-dwell both the Navy and Marine Corps for the 
quality of life for our sailors and Marines. And the same goes 
for our capital assets, to get them back into availabilities on 
a regular basis, hold the discipline of keeping those calendar 
days in place while also managing the demand signals from the 
combatant commanders.
    But I would say 2020 is probably the target we are looking 
for.
    Mr. Bacon. Thank you. That is better than I thought.
    Secretary Spencer. That is not without a lot of work, 
Congressman.
    Mr. Bacon. We like you working hard.
    Secretary Esper. Congressman, the Army is more ready today 
than we were a year ago, that is the good news and that is due 
in large part to the support of Congress. Going forward, we 
anticipate meeting our readiness goal or the Chief does in the 
fiscal year 2021 to 2023 timeframe. That is assuming that we 
get predictable, adequate, sustained, and timely funding. So as 
we have talked earlier, the challenges of CRs is it inhibits 
that type of readiness growth.
    But we are on target in terms of people, equipment 
readiness, the training we need to conduct, and of course a lot 
of the moneys for fiscal year 2019 will go into upgrades and 
other improvements that we need to meet the National Defense 
Strategy. Again, that is barring no change in demand as well.
    Mr. Bacon. What I want to do is just make a point on this 
next topic I want to bring up. Each of you have installation 
authorities or are taking care of installations, say in Europe. 
One thing that has come to our attention is some of our 
installations in Europe are dependent on Russian gas, which 
does not make sense because they are why we are there and if 
hostilities or tensions rose, you could expect that gas to be 
shut off.
    So I just wanted to ask you to maybe take a look at that 
and see what kind of resilience we need there; it was in our 
most recent NDAA to analyze.
    Secretary Wilson, how are we doing on the pilot shortage, 
for one; and two, if I could, it's a related question, how do 
we know the bonus works, because when I ask the Air Force this, 
they will say well, this is our retention, but we do not know 
even if we did not have the bonus how many of those would we 
have retained anyway. Because I think there are other factors 
than the bonus such as new aircraft, flying time, and all that, 
so I appreciate your insights.
    Secretary Wilson. Sir, with respect to the pilot shortage, 
we were 2,000 pilots short at the end of the last fiscal year. 
Just so everyone understands, we take that risk, we underfill 
pilot positions in staffs and we are more than 95 percent 
covered in our cockpits. So we put people in our cockpits to 
keep our readiness high.
    We are trying to solve this with really two parts. One is 
to produce more pilots. We have a national shortage of pilots 
and the airline industry is hiring over 4,500 pilots a year, 
and it is very hard to get into an airline cockpit now unless 
you come from the military and a small number of crop dusters 
and other things. So we have got to produce more pilots.
    In fiscal year 2016, we produced about a thousand pilots. 
We are trying to grow our pilot production to about 1,400 a 
year. Second is retention and some of it is financial. Most of 
it is non-financial and quality of life, quality of service, 
and I am happy to follow up with you.
    Mr. Bacon. Thank you.
    And Mr. Chairman, I yield back.
    The Chairman. Ms. Cheney.
    Ms. Cheney. Thank you, Mr. Chairman. Wonderful to see 
everybody and I appreciate your sticking around to the end or 
close to the end here.
    Secretary Wilson, my first question is for you. We have 
worked very hard to make sure that we are lifting those things 
that have handcuffed--in ways we have handcuffed ourselves, 
things like beginning now the process of getting the resources 
the military needs in order to begin to rebuild.
    One of the things I am very concerned about though is the 
INF [Intermediate-Range Nuclear Forces] Treaty and the ongoing 
danger frankly that we put ourselves in. We heard just last 
week in open testimony here the extent to which our obligations 
under the INF Treaty are constraining research and development 
of hypersonic capabilities.
    So, could you talk a little bit about that issue in 
particular and how we get to a place where we recognize we are 
now the only nation in the world that is constrained by the INF 
Treaty, and how we get ourselves out from under that situation.
    Secretary Wilson. My colleague--my other colleagues may 
want to comment on this. I do not think it constrains our 
hypersonic research or our other research.
    Ms. Cheney. Maybe we can talk about that separately.
    Secretary Wilson. Yeah.
    Ms. Cheney. But last week, the open session testimony was 
very much that it has an impact and constraints because we 
conduct our research in a way that we are sure is not going to 
violate our obligations under the INF Treaty when deployed.
    Secretary Wilson. And let me take that one and get back 
with you.
    [The information referred to was not available at the time 
of printing.]
    Ms. Cheney. Second question, cyber and I appreciate very 
much the efforts and the points that you have made in terms of 
stressing what we are doing, all three secretaries, with 
respect to cyber. But we as a committee remain deeply concerned 
about the lack of a cyber strategy from the administration. And 
we are now 14 months in. We welcome the National Security 
Strategy, welcome the National Defense Strategy, the Nuclear 
Posture Review, but I would really like to hear from each one 
of you how you can be confident that you are in fact building 
the kind of force we need, kind of modern force we need in the 
absence of an overall cyber-operation, cyber-deterrent 
strategy. Secretary Esper.
    Secretary Esper. Congresswoman, we fully recognize the 
threats that are out there. We are doing everything we can as I 
meet with the leads of the cross-functional teams, what I am 
reinforcing to them is that at their level making sure that all 
of our systems are both hardened and resilient. At the same 
time, as we discussed, I am looking at how we address cyber on 
the battlefield to ensure that we are defensibly protected and 
have offensive capabilities.
    And then of course, there is the enterprise side of our 
networks making sure they are protected as well. So we are 
doing everything we can within our scope of authorities and 
what I have under title 10 at this point.
    Secretary Spencer. Congresswoman Cheney, it is a challenge. 
I will be very honest with you. I am looking down here, the 
Navy has $448 million over the FYDP for cybersecurity efforts, 
everything from hardening HM&E [hull, mechanical, and 
electrical] to base hardening, and then if we look at the 
Digital Warfare Office, $27 million in fiscal year 2019 and 
going up from there.
    We are doing what we can, but to be very frank with you, 
when it comes to the personnel side, we are going to have to be 
very creative to get the minds that we need to actually attack 
this and get down to it. We are going to have to come to you 
probably for some relief on DOPMA. We are going to have to have 
on and off tracks, we are going to have to have different 
abilities to attract people to get them in and after the 
problem.
    But as far as dollars and activity right now, we are 
focused on protection primarily and secondarily offensive 
actions.
    Secretary Wilson. I would highlight three things. One is 
that we are prioritizing. The first is we are charged by Cyber 
Command with producing 39 cyber mission teams, and we are on 
track to do that. In fact I think they all become fully 
operational this year. The second is when we look at what are 
the most important things we need to do, one of them is our 
network infrastructure is pretty old. We are shifting to 
enterprise IT [information technology] as a service so that we 
move a lot of the kind of enterprise IT, our email and those 
things to companies that provide that and taking our 1,700 
cyber people who are in uniform and putting--training them to 
be more cyber defenders, so we use their skills in a way that 
is beyond what they serve me in the help desk.
    The third thing has to do with cyber operational 
improvements, and the fiscal year 2019 budget for the Air Force 
puts $900 million into more tools and mission defense teams, to 
improve our cyber protection for our bases, but also for our 
weapons systems.
    Ms. Cheney. I thank you all very much for that and again, I 
know you are doing the best you can, but I think that it is 
very difficult to justify the fact that we are now 14 months 
into this administration, facing the kind of grave threat that 
we face, in particular from Russia and China, and have no 
official cyber policy. So we will continue to focus on that as 
a committee. Thank you very much. I yield back.
    The Chairman. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    Secretary Wilson, thank you for coming to my district 
recently to recognize the valor that was displayed downrange by 
several of my constituents. And I appreciate the time you spent 
with me during that visit.
    You will recall we discussed the Gulf Test Range in the 
eastern Gulf of Mexico and the fact that we currently enjoy 
Military Mission Line that preserves the eastern Gulf for that 
test and evaluation mission. As I sit here today, some of my 
colleagues are taking the position that that line ought to move 
further east, creating less space for the Air Force and the 
Navy in particular to engage in the training and testing 
mission that is so essential.
    You indicated to me at that time that there was no space 
between your view and the view that General Goldfein has placed 
into the record that the Air Force needs absolutely all of that 
space going forward for the missions that we have planned and 
those that we anticipate in the future.
    Has there been any change in the Air Force's view on that 
matter?
    Secretary Wilson. No.
    Mr. Gaetz. And can you describe for me some of the 
consequences, particularly as it relates to munitions testing, 
if we were to have less space as some of my colleagues have 
suggested?
    Secretary Wilson. We do testing of missiles off of Eglin as 
you well know, but we also do training over the Gulf. And I 
think, you know, I happen to believe that we should be able to 
exploit natural resources of the United States for our 
prosperity, but we also have to maintain our national security.
    If there are ways in which to do that going forward that 
allow for both of those things, of course the Air Force is very 
open to that. But once we lose the ability to train, 
particularly in fifth-generation aircraft and hypersonics and 
other things, it is very hard to get back, so we are very 
cautious about that.
    Mr. Gaetz. Has the Air Force reviewed any plan from the 
Department of the Interior or any other element of the United 
States Federal Government that would alter the position of the 
Military Mission Line that would still preserve the important 
work that you have described?
    Secretary Wilson. I have not personally myself.
    Mr. Gaetz. Are you aware of anyone within the Air Force 
that has been presented with such a plan to alter the Military 
Mission Line?
    Secretary Wilson. I do not know, but I can take that 
question for you.
    Mr. Gaetz. Thank you.
    [The information referred to was not available at the time 
of printing.]
    Mr. Gaetz. And Secretary Spencer, I am also aware that the 
Navy utilizes the Gulf Test Range. Just this last week I spent 
time at Boca Chica Field and they were incredibly proud of the 
unique assets that the Navy has that maybe would not be able to 
be used in every setting, that is unique to some of the assets 
we have in the southeastern Gulf.
    Would a movement of the Military Mission Line concern the 
Navy?
    Secretary Spencer. It would. And I will tell you that 
professionally, there is no light in between Secretary Wilson 
and myself on this position.
    Mr. Gaetz. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you all. I would just end related to 
some discussion you all had with Mr. Bacon and Mr. Gallagher. 
At some point this week, we are going to pass or we are going 
to finally finish the fiscal year 2018 funding for the 
military. And we know how much will be spent in 2019 because of 
that budget deal, but it would be a mistake for any of us to 
leave the impression that this cap agreement and the money that 
flows from it fixes all our problems. It does not.
    And I recognize the point. We do not want to give the enemy 
our playbook and show our vulnerabilities, but on the other 
hand as Mr. Gallagher pointed out, we have got to talk frankly 
to the American people if we are going to have public support 
for continuing to work to finish our problems.
    And a lot of that responsibility falls on each of you for 
your respective services. So I just want to emphasize, we have 
got to manage expectations a little bit here. Not everything is 
fixed because we have a substantial increase in one year. The 
problems run deep and the closer--I see it. The closer you 
look, the deeper the problems are. And it is really important 
for each of you all to talk frankly about those problems and 
about what it takes to fix them.
    And Mr. Secretary Spencer, I just want to--I think your 
ship plan helps highlight that and I did not really know what 
was going on, I appreciate your explanations today. I think 
that shows the difference between what we say and what we are 
actually doing. And I think that is a useful thing.
    Ms. Murphy coming in late. Do you have a scintillating 
question that is just going to change the world?
    Mrs. Murphy. I am not sure that my question will change the 
world, Mr. Chairman, but I do want to get it in for the record 
if that would be okay.
    The Chairman. The gentlelady is recognized.
    Mrs. Murphy. Thank you. I, of course, I want to thank you 
all for appearing before the committee today and I also wanted 
to thank the chairman and ranking member for holding this 
hearing on such an important issue. I wholeheartedly agree that 
the Department's traditional acquisitions process is too slow 
and cumbersome especially given the life cycle of tech today.
    Secretary Esper, I appreciated the opportunity to meet with 
you recently and I know that the Army is currently evaluating 
potential locations for its new Futures Command. Can you 
elaborate on the search process and highlight a few of the 
qualities that you feel are essential for this new 
headquarters?
    Secretary Esper. Yes, Congresswoman. The task force has 
developed a course of action for Futures Command and has 
completed that task. They are now developing a set of criteria 
upon which we would consider locations for the actual Futures 
Command. So that will be coming to me sometime in the next week 
or two for approval. And then beyond that point, we will start 
putting locations through that filter and seeing how things 
come out.
    There will be a number of factors, I think one of which of 
course will be easy access, quick access to very good civilian 
talent, so we could leverage those types of folks from 
academia, from industry, whatever the case may be in terms of 
either thinking about the future or thinking about materiel 
solutions that we need down the road.
    Mrs. Murphy. Thank you. And as you may know, I represent a 
district known for its growing prominence in the high-tech 
clusters of innovation such as modeling and simulation as well 
as world-class educational opportunities. The very things that 
you are talking about as far as the civilian workforce that is 
talented, hooked in with the second largest research and 
development university in the country. I think that it is 
critical that the Army Futures Command is located in such a 
center of excellence to capitalize on the existing academic, 
business, and workforce infrastructure.
    So thank you and I will yield back.
    The Chairman. I thank the gentlelady. It is an important 
topic. Thank you all for being here, for answering our 
questions and for our chance to work together in the future. 
The hearing stands adjourned.
    [Whereupon, at 12:39 p.m., the committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 20, 2018

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 20, 2018

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    
    

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 20, 2018

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. In previous committee hearings, we've been told how 
AI and machine learning are helping to process, exploit, and 
disseminate enormous amounts of ISR data, and how we are working 
towards an increase in autonomous systems to provide logistics to 
forward units. These advancements need to continue, but I am also 
interested in how the services are using machine learning and 
automation to deliver cost-savings through better business practices 
and enhanced decision-making. Can you each describe how you are 
leveraging these technologies for internal benefit, not simply 
battlefield gains?
    Secretary Esper. There are several areas where the Army can use 
Artificial Intelligence/Machine Learning (AI/ML) to improve business 
practices and to enhance decision-making.
    Artificial Intelligence and Machine Learning will be a critical 
part of the Army's Synthetic Training Environment (STE). Artificial 
intelligence (AI) and Virtual Humans with high fidelity Human Behavior 
Representation will be a critical part of the STE to create realistic 
autonomous or semi-autonomous Units (e.g., Blue Forces, Opposing 
Forces, and Role Players) that enable high quality training while 
reducing the overhead manpower requirements necessary to run an 
exercise. Artificial Intelligence and Machine Learning capability will 
be integrated into the Squad/Soldier Virtual Trainer's Heads Up Display 
3.0 to enable rapid terrain and data analysis; rapid and predictive 
decision making for Soldiers and squads through enhanced perception and 
target recognition; and AI allows for a ``thinking and improving 
enemy'' during training which will allow Soldiers and squads to hone 
their cognition skills at a much quicker rate. AI allows for 
exponential improvements with each train, rehearse, and fight event.
    The Army is also using AI/ML to enhance acquisition training for 
contracting operations and to develop individual competency models that 
can be used to map people to projects. The Army is taking a simulation 
with an integrated AI approach to create avatars that can interact with 
humans in a natural way to help them learn and improve acquisition 
functions, such as face-to-face contract negotiations, thus essentially 
tailoring workforce training by expanding adaptive instruction to 
training that would result in time savings and an increase in 
productivity in the workforce.
    The Army is using big data, predictive analytics, and artificial 
intelligence to improve demand forecasting and understanding readiness 
drivers in the supply chain, leveraging conditions based maintenance to 
predict maintenance requirements, optimizing the use of air transport 
in Second Destination Transportation requirements, and applying data 
science to find contracting efficiencies
    Also the Army is leveraging the advancements in AI/ML for cyber 
defense operations by developing automatic vulnerability detection, 
prevention, and remediation methods to provide proactive, network-
level, rapid defense. We need to be able to identify and distill 
threats in real-time, and find the needle in the haystack. The Army 
expects to realize cost savings and improve decision-making by 
leveraging these technologies.
    Mr. Langevin. In previous committee hearings, we've been told how 
AI and machine learning are helping to process, exploit, and 
disseminate enormous amounts of ISR data, and how we are working 
towards an increase in autonomous systems to provide logistics to 
forward units. These advancements need to continue, but I am also 
interested in how the services are using machine learning and 
automation to deliver cost-savings through better business practices 
and enhanced decision-making. Can you each describe how you are 
leveraging these technologies for internal benefit, not simply 
battlefield gains?
    Secretary Spencer. The Department of the Navy (DON) is committed to 
improving the performance and cost effectiveness of its business 
processes and decision making through better use of data and advanced 
analytics. Machine learning offers clear benefits distinct from the 
promise demonstrated in warfighting mission areas. DON application of 
machine learning have focused on supply chain management consistent 
with our urgency to improve current readiness. These efforts are in the 
proof of concept phase and include:
    <bullet>  An algorithm was developed that automates an optimization 
in the allocation of aircraft parts. This algorithm allows the supply 
system to generate more immediate aircraft readiness, without any 
additional direct costs.
    <bullet>  Custom analytics was developed to monitor engine 
performances and revise maintenance schedules optimizing Military 
Sealift Command (MSC) engine plant operations.
    <bullet>  Machine learning software, using data from facility 
control systems, was utilized to deliver energy efficiency, predictive 
maintenance and operational savings.
    <bullet>  The integration of data from fuel sensors, flow meters, 
and transponders was automated to provide near real-time fuel 
consumption and levels. Machine learning is being incorporated in this 
process to increase efficiency in fuel distribution and storage.
    <bullet>  Advanced analytics was used to assess DDG-51 ship class 
readiness focusing on customer outcomes, improving supply support and 
increasing operational readiness.
    To expand analytical proofs of concept across more business 
functions and accelerate broader adoption of promising machine learning 
use cases, the DON has established a dedicated function under the Chief 
Management Officer to advance the enterprise use of data and analytics 
in decision making and reform.
    Mr. Langevin. In previous committee hearings, we've been told how 
AI and machine learning are helping to process, exploit, and 
disseminate enormous amounts of ISR data, and how we are working 
towards an increase in autonomous systems to provide logistics to 
forward units. These advancements need to continue, but I am also 
interested in how the services are using machine learning and 
automation to deliver cost-savings through better business practices 
and enhanced decision-making. Can you each describe how you are 
leveraging these technologies for internal benefit, not simply 
battlefield gains?
    Secretary Wilson. At this time the Air Force prioritizes 
researching technologies that will give our warfighters an asymmetrical 
advantage on the battlefield. The technology required to improve our 
business systems exists now in the commercial sector. Rather than 
develop our own unique systems we are in the early stages of adapting 
our business processes to rapidly acquire commercial or commercial-like 
technologies.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. The Army has been conducting a service-wide Munitions 
Readiness Study to ensure our inventories are sufficient to respond to 
future potential threats and conflicts. I understand that the Patriot 
Air Missile Defense Systems employs a mix of missiles to address a 
range of threats. The Guidance Enhanced Missile-TBM known as the GEM-T 
constitutes a significant portion of that inventory. Can you please 
comment on the Army's FY 2019 budgeting plans to recertify the 
inventory of over 1,300 missile to sustain adequate numbers of GEM-T in 
the face of emerging air and missile threats?
    Secretary Esper. The Army continues to increase Guidance Enhanced 
Missile-T (GEM-T) inventories with $12.97 million in the budget request 
for FY19 in support of GEM-C to GEM-T conversions. The Army has 
programmed GEM-T recertification starting in FY20 to ensure safe and 
reliable missiles.
    Mr. Shuster. The Army All Terrain Heavy Crane provides mobility, 
survivability, and counter-mobility support across the entire range of 
theater operations supporting Route Remediation Units, Maneuver Brigade 
Combat Teams, and Expeditionary Engineer Brigades. The crane provides 
the capability to load and unload containers, support base camp 
construction, and force protection. Although the Heavy Crane is a 
commercially off the shelf item, the modifications for Army 
requirements necessitate a specialized and separate workforce. How is 
the Army planning to address funding for the All Terrain Heavy Crane in 
FY 2019 and meet minimum production going forward?
    Secretary Esper. The Army is focused today on readiness and our six 
Modernization priorities to ensure our greatest capability gaps are 
addressed as soon as possible. The Army plans to procure as many All-
Terrain Heavy Cranes as necessary to ensure operational requirements 
are met as opposed to focusing on a minimum sustainment rate. In Fiscal 
Year 2019, this equates to a funding request that procures eight All-
Terrain Heavy Cranes, supporting eight Engineer Companies.
    Mr. Shuster. The Navy trains between 550 and 650 rotary-wing and 
tilt-rotor pilots annually for the Navy, Marine Corps, U.S. Coast 
Guard, and Foreign Military Partners at Naval Air Station Whiting 
Field, Florida. TH-57 Sea Ranger has been the training platform for 
over 30 years, averaging approximately 70,000 flight hours annually. In 
the Navy's RDT&E Budget Justification Book, it states, ``The TH-57 
Training System is experiencing obsolescence, diminishing manufacturing 
sources and material shortages, training capability gaps (as identified 
in the Capabilities based assessment Naval Aviation Undergraduate 
Flight Training), and increasingly expensive operating costs related to 
aging aircraft issues.''
    What is the current readiness status of the TH-57 aircraft, and is 
that readiness status impacting the Navy's ability to train Navy and 
Marine Corps helicopter pilots?
    In 2007, the Navy identified the replacement of the TH-57 as an 
``Urgent Need.'' Is its replacement still an urgent need, and what is 
the impact of continuing to delay acquiring a replacement for the TH-
57?
    Is the Navy on track with its program office and funding for a 
planned release of the TH-57 Request for Proposal in January-March 2019 
with award October-December 2019? If not, what can this committee do to 
assist?
    Secretary Spencer. Current TH-57 inventory is 80 percent of the 
original inventory and is spread across two distinct models (Bravo and 
Charlie). Each model has unique maintenance and supply requirements, 
and supports specific portions of the Advanced Rotary and Tilt-Rotor 
Training syllabi. Only 95 percent of the rotary and tilt-rotor pilot 
training requirement is being met given the available aircraft 
inventory and aggressive maintenance and supply management posture that 
is needed to produce training ready aircraft. Training shortfalls will 
be exacerbated by a 15 percent increase in student helicopter/tilt-
rotor pilot demand that begins in FY 2019 and is realized through FY 
2025. Aging aircraft issues and parts obsolescence continue to impact 
aircraft readiness status. There is still an urgent need to replace the 
35-year-old TH-57. The immediate issues of obsolescence, diminishing 
manufacturing sources and material shortages are being managed, but the 
ability to maintain the late 1970's era avionics will not last past the 
end of FY 2025. Thus, deliveries of a replacement training helicopter 
are needed to start in FY 2020 in order to divest of the TH-57 as soon 
as technically and programmatically feasible. A delay in acquiring a 
replacement will erode aircraft availability as mission essential 
avionics begin to fail without the ability to effect repairs. In 
addition to cited sustainment challenges, the TH-57 cockpit 
configuration lacks relational relevance to fleet aircraft and degrades 
training or presents training gaps attributable to a lack of modern 
aircraft technologies and interfaces. The Navy is on track to release a 
Request for Proposals (RFP) in January-March 2019 (Draft RFP to be 
released October-December 2018 (Q1FY19)) and contract award in October-
December 2019 (Q1FY20), which would be at risk under a Continuing 
Resolution. No assistance is required with managing the acquisitions of 
the new helicopter, associated training systems, or maintenance support 
systems.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. How does the Air Force plan to acquire light attack 
aircraft following the OA-X experiment. How quickly does the Air Force 
plan to seamlessly transition from experiment to acquisition, and would 
Congressional funding help in FY19 to speed up efforts?
    Secretary Wilson. The Air Force is currently developing and 
reviewing potential rapid acquisition alternatives for the light attack 
aircraft. Of particular focus are rapid fielding and rapid procurement 
strategies that leverage existing capabilities and emphasize little or 
no development.
    At this time, Air Combat Command is finalizing the requirements for 
the light attack aircraft with a focus on operations in permissive 
environments. Also, the Air Force continues to examine force structure 
and funding options for this potential acquisition program. As the 
acquisition strategy is refined, the funding required to support the 
procurement of aircraft will be solidified.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. STEFANIK
    Ms. Stefanik. I understand the Army is making significant progress 
on the Improved Turbine Engine Program (ITEP)--the Army's stated top 
aviation modernization program. ITEP will provide the Army with the 
next generation engine for the Black Hawk and Apache helicopters. The 
ITEP engine will increase power by 50 percent and fuel efficiency by 25 
percent, saving the Army billions of dollars while providing 
significantly increased capabilities for the Warfighter. Does ITEP 
remain the Army's number one aviation modernization priority? What is 
ITEP's near and long term development timeline? Are you planning to 
adequately fund ITEP in FY 2019 and beyond?
    Secretary Esper. Improved Turbine Engine Program (ITEP) remains a 
top priority for our current fleets, providing our attack and utility 
helicopter fleets with significant increases in performance, fuel 
efficiency, and sustainability. ITEP is a bridge from our highly 
capable current fleets to Future Vertical Lift (FVL) platforms and has 
the potential to power certain FVL variants. We believe ITEP will 
achieve milestone (MS) B by 1st quarter Fiscal Year 2019 (FY19), which 
will allow development, building and testing of the capability. We 
anticipate that ITEP will achieve MS C in FY24, which will enable low 
rate initial production and initial operational test and evaluation to 
support initial operational capability in FY27. ITEP is fully funded in 
FY19 and across the Future Years Defense Program.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HANABUSA
    Ms. Hanabusa. For fiscal year 2019, end strength for each of the 
services is expected to increase. It is estimated that total active 
duty end strength would go from 1.32 million service members to 1.37 
million, and the reserve component increasing from 817,000 to 821,000 
service members. How did DOD determine by what amount each service's 
end strength would increase? Can you provide the number that each of 
your respective services are increasing by? What type of skills are 
being sought for new service members for each of the services?
    Secretary Esper. The Army seeks to continue increasing end strength 
at a rate that allows growth in critical capabilities while maintaining 
readiness and quality standards in both accessions and retention. For 
Fiscal Year 2019, we are requesting an increase of 4,000 in the Regular 
Army. This increase is based on an analysis of the end strength the 
Army will require in order to fulfill the demands set forth in the 
National Defense Strategy. The Army will use the requested growth to 
increase capacity in capabilities like air defense and long-range field 
artillery, as well as combat enablers. Questions regarding other 
services of the Department of Defense are best answered by the Joint 
Staff and/or the Office of the Secretary of Defense (OSD), as they have 
greater visibility over the other services' end strength increase 
efforts.
    Ms. Hanabusa. Secretary Spencer, in your testimony you mention that 
ballistic missile submarines are ``the most survivable leg of the 
nuclear triad.'' Can you elaborate on this statement and why you feel 
that this leg of the triad is superior than the other two? 
Additionally, if the two remaining legs of the triad are not as 
effective and/or adequate, shouldn't modernization focus on improving 
on and expanding the superior method, which you deem to be the 
ballistic subs? Given the tremendous costs involved in ensuring the 
effectiveness of our country's nuclear capabilities, how can you 
justify continuous investment in the dated and less effective 
components (i.e. land-based ICBMs and B-21 bombers) of our nuclear 
triad?
    Secretary Spencer. The 2018 Nuclear Posture Review (NPR) reaffirms 
that the triad's ``overlapping attributes ensure the enduring 
survivability of our deterrence capabilities against attack and our 
capacity to hold at risk a range of adversary targets throughout a 
crisis or conflict. Eliminating any leg of the triad would greatly ease 
adversary attack planning and allow an adversary to concentrate 
resources and attention to defeating the remaining two legs.'' The NPR 
also reaffirmed the need to recapitalize each component of the triad. 
It states that the cost to recapitalize, ``while substantial, are 
moderate in historical terms and represent a small fraction of the DOD 
budget.'' SSBNs are one of three complementary legs of the strategic 
deterrent triad. On patrol, SSBNs are virtually undetectable. The 
COLUMBIA Class Program is Navy's number one shipbuilding and 
acquisition priority. The Navy is taking the necessary steps to ensure 
the COLUMBIA SSBN is designed, built, delivered, and tested on time 
with the right capabilities at an affordable cost.
    Ms. Hanabusa. For fiscal year 2019, end strength for each of the 
services is expected to increase. It is estimated that total active 
duty end strength would go from 1.32 million service members to 1.37 
million, and the reserve component increasing from 817,000 to 821,000 
service members. How did DOD determine by what amount each service's 
end strength would increase? Can you provide the number that each of 
your respective services are increasing by? What type of skills are 
being sought for new service members for each of the services?
    Secretary Spencer. The National Defense Strategy (NDS) directs the 
building of a more lethal, resilient, and agile force to deter and 
defeat aggression by great power competitors and adversaries in all 
domains and across the conflict spectrum. As such, the NDS determined 
the Military Services' end strength growth. The Active Navy end 
strength growth of 7,500 in FY19 is represented by the following skill 
sets: Student Billets; Officer/Enlisted Transient Prisoner Patient 
Holdee billets required to support Fleet Manning Wholeness; Littoral 
Combat Ship billets; 2 Cruiser crews; SOF Growth; Osprey aircrews; 
Recruiters; Expeditionary Sea Base crew; and Surface Warfare 
Comprehensive Review manpower recommendations. The Reserve Navy end 
strength growth of 100 in FY19 is represented by the following skill 
sets: Maintenance manpower for 2 new fleet logistics aircraft; Officer/
Enlisted Theatre Anti-Submarine Warfare billets; and Fire fighters/EMS 
crews to augment base support billets. The Active Marine Corps' end 
strength growth of 100 in FY19 is represented by the addition of 
general combat service support skills (e.g., logistics, utilities, and 
supply) as well as data/cyberspace and intelligence enablers 
specifically trained to support Marine Special Operations Forces. These 
skills will provide required enabler support for existing Marine Corps 
Special Operations Command operational units. There were no Marine 
Corps Reserve Force end strength increases in the FY19 Budget Request.
    Ms. Hanabusa. For fiscal year 2019, end strength for each of the 
services is expected to increase. It is estimated that total active 
duty end strength would go from 1.32 million service members to 1.37 
million, and the reserve component increasing from 817,000 to 821,000 
service members. How did DOD determine by what amount each service's 
end strength would increase? Can you provide the number that each of 
your respective services are increasing by? What type of skills are 
being sought for new service members for each of the services?
    Secretary Wilson. Our FY19 budget request builds on the progress we 
have been making in 2018 to restore the readiness of the force, 
increase lethality, and cost-effectively modernize by continuing our 
growth to 680,400 Total Force Airmen--329,100 Active Duty, 107,100 Air 
National Guard, 70,000 Air Force Reserve, and 184,200 Civilians*. The 
growth will accelerate our readiness and provide more lethal Airmen to 
protect and defend our Nation. Our budget prioritizes long-term 
competition with China and Russia in alignment with the National 
Defense Strategy and moves the Air Force in the direction of multi-
domain operations.
    The Total Force military growth between FY18 and FY19 is 4,700. The 
4,700 end strength growth includes 4,000 Active Duty, 500 Air National 
Guard, and 200 Air Force Reserve. The growth, as represented in the 
FY19 accession plan, consists of 1,600 for aircraft maintenance; 1,160 
for logistics, medical, and support career fields; 400 for rated and 
pilot production; 270 for operations in space, cyber, and others; 240 
for intelligence; 220 for career enlisted aviators; and 110 for 
Battlefield Airmen. This growth in Active Duty end strength is a part 
of our deliberate strategy to improve the manning in Air Force units.
    The 500-growth for Air National Guard includes 100 for aircraft 
maintenance; 100 for logistics and support career fields; 270 for 
operations in aeromedical evacuation, nuclear deterrence operations, 
rapid global mobility, global precision attack, and others; and 30 for 
intelligence.
    Air Force Reserve's 200-growth includes 115 for security forces, 50 
for intelligence and cyber, 31 for combat rescue, and 4 for rated and 
pilot production.
    In short, this investment strategy increases pilot production, adds 
operations and maintenance manpower to Remotely Piloted Aircraft and 
continues our manpower investment in cyber and intelligence. 
Additionally, the growth provides the inventory the Air Force needs to 
right-size our trainee pipeline; improves squadron health and 
readiness; and gives us the competitive advantage for Air, Space and 
Cyber superiority.
    *All AF civilians: including ARC techs and civilians in Combatant 
Commands, Defense Agencies and Field Activities where the AF is the 
Executive Agent.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MS. ROSEN
    Ms. Rosen. In Nevada we're proud to be home to Nellis AFB and 
Fallon Naval Air Station, the premier training sites for our nation's 
fighter pilots. I am very concerned about the pilot shortages facing 
the Air Force and Navy, with a lack of flight hours cited as the 
primary reason for pilots leaving the military for commercial airlines, 
particularly as they promote out of the cockpit and into an office 
space. How do we solve this problem and when can we expect to see 
improvements in pilot manning and squadron readiness?
    Secretary Spencer. Navy Aviation's inventory/accessions remain 
sufficient to meet operational requirements. However, declining 
retention in some communities presents challenges to aviation's long-
term health. Leadership has identified a number of factors involved in 
the challenge to retain aviators including lack of flight hours, 
tactical training, and progression of qualifications, all associated 
with aircraft material readiness challenges. Last year, Navy 
established a readiness recovery team to address maintainer retention 
and training issues, spare parts availability, and depot level 
maintenance challenges contributing to decreased strike fighter 
aircraft availability. The team is identifying solutions in systemic 
supply, maintenance, manning and facilities shortfalls resulting from 
years of overutilization and underfunding. Consistent funding of 
readiness accounts across the Future Years Defense Program will be key 
to success. Additionally, aviators have consistently expressed interest 
in enhanced career path flexibility, opportunities for personal and 
professional development, and flexible, merit based, competitive, 
monetary incentives. Accordingly, Navy has:
    <bullet>  increased options for graduate school and fellowships 
through initiatives, such as Tours with Industry and the Career 
Intermission Program.
    <bullet>  begun evaluating changes in the legacy aviation career 
path to offer options, such as permanent flight instructor assignments.
    <bullet>  begun modernizing the officer fitness report which will 
help further improve flexibility in the relatively time-constrained 
career path; and
    <bullet>  increased the Aviation Bonus (for department head and 
command assignments) and Aviation Incentive Pay, applying a holistic 
approach that synchronizes targeted increases in flight pay and 
bonuses, in a mutually supportive fashion, upon attainment of major 
aviation leadership milestones, i.e., department head, command and 
major command, which effectively adds a ``merit'' component. Bonus and 
flight pay adjustments have been well-received, as initial ``take 
rates'' are a leading indicator of improving retention and manning 
readiness.
    Sustained support for readiness enabler accounts, including flight 
hour and aircraft spare parts, is critical to improving the quality of 
aviation service. Combined with personnel modernization initiatives, we 
remain cautiously optimistic that these changes will effectively 
address issues contributing to aviators leaving the Navy. It may take a 
number of years to noticeably impact fleet manning, but we are closely 
monitoring the effectiveness of these initiatives, and will make 
further changes as necessary.
    Ms. Rosen. In Nevada we're proud to be home to Nellis AFB and 
Fallon Naval Air Station, the premier training sites for our nation's 
fighter pilots. I am very concerned about the pilot shortages facing 
the Air Force and Navy, with a lack of flight hours cited as the 
primary reason for pilots leaving the military for commercial airlines, 
particularly as they promote out of the cockpit and into an office 
space. How do we solve this problem and when can we expect to see 
improvements in pilot manning and squadron readiness?
    Secretary Wilson. The Aircrew Crisis Task Force pilot recovery plan 
is designed to restore Air Force pilot manning to 95% by the end of 
2023. To achieve this, the Air Force is focusing on three main lines of 
effort: increased retention of current pilots, increased production of 
new pilots, and optimizing pilot requirements. Given the current 
conditions, once initiatives within the lines of effort are approved, 
funded, and implemented the Air Force should see improvements in pilot 
manning. Moreover, aircraft availability plays a major role in pilot 
production and is a critical part of readiness. Aircraft Availability 
must be improved to meet the increasing sortie generation requirements 
driven by additional pilot production and seasoning necessary to 
correct the aircrew crisis. The Air Force has embarked on an Aircraft 
Availability Campaign tied to the Aircrew Crisis Task Force focused on 
spares postures, spares forecasting, depot capacity, manpower 
utilization and policy. Through these efforts, we expect to see a 3-5% 
improvement in aircraft availability to support increased pilot 
production and seasoning within the Future Years Defense Plan.
    Ms. Rosen. Can you outline your top cybersecurity and cyber warfare 
priorities? How are you thinking about emerging technologies such as 
Artificial Intelligence, high performance computing, directed energy, 
hypersonics, and autonomy? How are you resourcing these technologies 
within your FY 2019 request?
    Secretary Wilson. Air Force top three cyber issues for 2019:
    1. Network and Weapon System Resiliency: Network infrastructure is 
antiquated and is failing at high rates. Additionally, we lack 
resources to defend base infrastructure and weapon systems.
    <bullet>  To improve network performance and resiliency, we are 
transitioning to Enterprise IT as a Service. The FY19 budget provides 
$223M to support initial implementation across the service.
    <bullet>  We are refocusing cyber Airmen to defense of USAF weapon 
systems and base infrastructure. The FY19 budget provides $82M to 
support Weapon System Cyber Resiliency.
    2. Improving Cyber Operations: By building upon the benefits of 
migrating to Enterprise IT as a Service. $900M in FY19 budget supports 
the Air Force in:
    <bullet>  Acquiring specialized tools to enhance USAF effectiveness 
in cyber
    <bullet>  Establishing Mission Defense Teams at Combat Wings to 
defend missions, facilities, and networks
    <bullet>  Accelerating cloud migration using additional $60M in 
FY19 budget
    3. Joint Cyber Warfighting: Cyber Mission Forces lack an integrated 
warfighting cyber platform and effective command and control of cyber 
operations across the DOD. FY19 budget provides $71M to defend our 
networks and increase joint lethality.
    <bullet>  AF leads development of the Unified Platform and Joint 
Cyber Command and Control to integrate Service-unique cyber platforms 
capabilities
    <bullet>  Programs will consolidate service unique systems into a 
single cyber offensive and defensive capability
    In accordance with the 2018 National Defense Strategy, the Air 
Force is vigorously pursuing game changing technologies to improve the 
lethality of the force. Hypersonics, Artificial Intelligence, directed 
energy, high performance computing, and autonomous systems all afford 
the Air Force with opportunities to do just that. We have prototyping 
efforts in both Directed Energy and Hypersonics and are participating 
in Grey Wolf. We have identified areas where we need to go fast, take 
risk and leverage across the services to ensure we maintain the 
technological edge for our nation. We can get there, but we need to 
take some risk and do business differently if we want to be successful.
    Specifically, the Air Force's FY19 Science and Technology (S&T) 
program invests in and develops capabilities that advance the 
technological superiority of the U.S. military to counter new and 
emerging threats. The FY19 PB request for S&T is approximately $2.6 
billion, representing an increase of 2.4% from the FY18 PB. Our 
investment focuses on game-changing technology such as Hypersonics, 
Directed Energy, Artificial Intelligence/Machine Learning, Quantum, 
Nanotechnology, Autonomy, and Unmanned Systems. In addition to the 
Department's S&T investment, the FY19 PB request includes $258 million 
for Hypersonic Prototyping to accelerate hypersonic weapon research and 
development through 2 prototyping efforts, the Air Launched Rapid 
Response Weapon and the Hypersonic Conventional Strike Weapon.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BANKS
    Mr. Banks. Your testimony mentions the importance of Congressional 
support for the future of the Army Futures Command. The academic, 
industry, test and training assets of my State (Indiana) are uniquely 
available to address the Army's six modernization priorities of long-
range precision fires, a next-generation combat vehicle, future 
vertical lift platforms, a mobile and expeditionary Army network, air 
and missile defense capabilities, and Soldier lethality.
    Is the Army able to provide an update on the service's list of 
cities to be visited for final consideration?
    I'd like to know if Indianapolis, because of its plentiful assets, 
standard of living, and overall capacity versatility, will be on this 
list?
    Secretary Esper. The Army will establish a Futures Command 
headquarters that is small, dynamic and composed of the very best from 
our military and civilian workforce, probably less than 500 personnel. 
We want this headquarters to be located near leading academic science, 
technology, engineering and math (STEM) research engines and commercial 
institutions to harness the best talent possible in emerging technology 
and innovation.
    The Army Futures Command Task Force applied four sets of criteria 
to assess 150 metropolitan statistical areas (MSAs) to identify the top 
innovation hubs across the United States as a potential location for 
this new headquarters. We began with an assessment of proximity to 
talent in key technical fields. We then assessed the commercial 
innovation and academic STEM R&D to identify the top locations. 
Indianapolis is not in the top 15 candidate cities. We will continue 
down selection process with the intent of announcing a final decision 
this summer.
    Mr. Banks. As both a father and the most recently deployed Member 
of Congress, I can attest to the importance of education options for 
military families and their children. I've recently seen survey results 
that 35 percent of military families have indicated dissatisfaction 
with their child's education was a significant factor in their decision 
to continue their military service or to leave. Adding to this 
discontent is the fact that more than 50 percent of military families 
live in States that provide no choice in education. With readiness 
being a top concern for the services, please explain this issue in 
greater detail, as well as the impact it has had on the retention rate 
of service members with families in your respective branches?
    Secretary Esper. The Army has not been able to draw any direct 
correlation between choice in education and retention rates. We 
recognize, however, that the quality of education impacts retention and 
that military families face significant, unique, and difficult 
challenges. For this reason we remain committed to partnering with 
local communities and DODEA to ensure military families are satisfied 
with their education opportunities and options for their children.
    As an example of our commitment, Army partnered closely with the 
Department of Defense and Council of State Governments to develop the 
Interstate Compact on Educational Opportunity for Military Children. 
This Compact allows transfer of education transcripts between states, 
and ensures children of military families are not penalized or delayed 
in achieving their educational goals due to military related moves.
    Mr. Banks. As both a father and the most recently deployed Member 
of Congress, I can attest to the importance of education options for 
military families and their children. I've recently seen survey results 
that 35 percent of military families have indicated dissatisfaction 
with their child's education was a significant factor in their decision 
to continue their military service or to leave. Adding to this 
discontent is the fact that more than 50 percent of military families 
live in States that provide no choice in education. With readiness 
being a top concern for the services, please explain this issue in 
greater detail, as well as the impact it has had on the retention rate 
of service members with families in your respective branches?
    Secretary Spencer. The Department of the Navy recognizes that the 
quality of our children's education impacts readiness and retention; 
however, we have not been able to draw any direct correlation between 
choice in education and retention rates. As you well know, our mobile 
military families face significant, unique, and difficult challenges; 
and, these challenges are part of the reason that--for the first time--
the Every Student Succeeds Act requires public school districts to 
track the achievement of military-connected students. This data will 
provide information on school transitions, academic performance, 
special program participation, attendance and other high school 
graduation and postsecondary transitions. The Department of the Navy 
remains committed to partnering with local communities and DODEA to 
ensure military families are satisfied with education opportunities and 
options for their children.
    Mr. Banks. As both a father and the most recently deployed Member 
of Congress, I can attest to the importance of education options for 
military families and their children. I've recently seen survey results 
that 35 percent of military families have indicated dissatisfaction 
with their child's education was a significant factor in their decision 
to continue their military service or to leave. Adding to this 
discontent is the fact that more than 50 percent of military families 
live in States that provide no choice in education. With readiness 
being a top concern for the services, please explain this issue in 
greater detail, as well as the impact it has had on the retention rate 
of service members with families in your respective branches?
    Secretary Wilson. While the Air Force has no specific personnel 
system code reflecting separation rationale as lack of ``quality 
education for school-age dependents,'' we have no doubt that this is 
one of many variables Airmen who have school age children must weigh 
heavily in their decisions to remain part of the Air Force. We often 
hear from spouses and family members during forums, workshops, or focus 
groups of their concerns for their children receiving quality education 
in safe school environments. In turn, our spouses have expressed that 
one of the primary reasons for their continued support or influence of 
our Airmen remaining in active service is directly related to how well 
they believe their children are educated.
    The compelling nature of concerns raised by our families led the 
Secretary of the Air Force to join with the other Service Secretaries 
in a February 2018, letter to the National Governors Association 
expressing intent to consider the quality of schools near bases in 
future basing or mission decisions. We look forward to continuing our 
hard work with the States and stand ready to assist in helping to 
improve the public education quality for our Air Force families.

                                  <all>
</pre></body></html>
